<html>
<title> - OVERSIGHT OF FEDERAL AVIATION ADMINISTRATION SAFETY PROGRAMS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
      OVERSIGHT OF FEDERAL AVIATION ADMINISTRATION SAFETY PROGRAMS

=======================================================================

                                (109-98)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2006

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                    U.S. GOVERNMENT PRINTING OFFICE

30-668 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)



                        SUBCOMMITTEE ON AVIATION

                    JOHN L. MICA, Florida, Chairman

THOMAS E. PETRI, Wisconsin           JERRY F. COSTELLO, Illinois
HOWARD COBLE, North Carolina         LEONARD L. BOSWELL, Iowa
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
VERNON J. EHLERS, Michigan           ELEANOR HOLMES NORTON, District of 
SPENCER BACHUS, Alabama              Columbia
SUE W. KELLY, New York               CORRINE BROWN, Florida
RICHARD H. BAKER, Louisiana          EDDIE BERNICE JOHNSON, Texas
ROBERT W. NEY, Ohio                  JUANITA MILLENDER-McDONALD, 
FRANK A. LoBIONDO, New Jersey        California
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, JR., New Jersey
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
JOHN BOOZMAN, Arkansas               RICK LARSEN, Washington
JIM GERLACH, Pennsylvania            MICHAEL E. CAPUANO, Massachusetts
MARIO DIAZ-BALART, Florida           ANTHONY D. WEINER, New York
JON C. PORTER, Nevada                BEN CHANDLER, Kentucky
KENNY MARCHANT, Texas                RUSS CARNAHAN, Missouri
CHARLES W. DENT, Pennsylvania        JOHN T. SALAZAR, Colorado
TED POE, Texas                       NICK J. RAHALL II, West Virginia
JOHN R. `RANDY' KUHL, Jr., New       BOB FILNER, California
York, Vice-Chair                     JAMES L. OBERSTAR, Minnesota
LYNN A. WESTMORELAND, Georgia          (Ex Officio)
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Dillingham, Gerald, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office..........................    18
 Haueter, Thomas, Deputy Director, Office of Aviation Safety, 
  National Transportation Safety Board...........................    17
 Sabatini, Nicholas, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration................................    15
 Zinser, Todd, Acting Inspector General, Office of Inspector 
  General, U.S. Department of Transportation.....................    19

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    64
Costello, Hon. Jerry F., of Illinois.............................    65
Oberstar, Hon. James L., of Minnesota............................   115
Reynolds, Hon. Tom, of New York..................................   119
Ros-Lehtinen, Hon. Ileana, of Florida............................   121

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Dillingham, Gerald..............................................    68
 Haueter, Thomas.................................................    99
 Sabatini, Nicholas..............................................   125
 Zinser, Todd....................................................   165

                       SUBMISSIONS FOR THE RECORD

Kelly, Hon. Sue W., a Representative in Congress from New York, 
  article, "Air Traffic Controllers Chafe at Plan to Cut Staff", 
  Matthew L. Wald, New York Times, September 20, 2006............    34
Costello, Hon. Jerry F., a Representative in Congress from 
  Illinois, letter to Hon. James L. Oberstar, a Representative in 
  Congress from Minnesota, from Gerald L. Dillingham, Director, 
  Civil Aviation Issues, U.S General Accounting Office, September 
  23, 2003.......................................................    60
 Sabatini, Nicholas, Associate Administrator for Aviation Safety 
  Federal Aviation Administration:

  Responses to questions from Rep. Mica..........................   136
  Blakey, Hon. Marion C., Administrator, Federal Aviation 
    Administration, U.S. Department of Transportation, letter to 
    Hon. Mark V. Rosenker, Acting Chairman, National 
    Transportation Safety Board, May 31, 2006....................   143
  Safety Alert for Operators (SAFO), memo, April 28, 2006........   146
  Responses to questions from Rep Chandler.......................   148
  Responses to questions from Rep. Schwartz......................   150
  Additional responses to questions from Members.................   152

                        ADDITIONS TO THE RECORD

Aeronautical Repair Station Association (ARSA), Christian A. 
  Klein, Legislative Counsel, and Virginia K. Scattergood, 
  Associate Counsel, letter and charts, October 4, 2006..........   186
Mitsubishi Heavy Industries America, Inc., Aircraft Product 
  Support Division, Ralph Sorrells, Deputy General Manager, 
  Product Support Division, statement............................   194


      OVERSIGHT OF FEDERAL AVIATION ADMINISTRATION SAFETY PROGRAMS

                              ----------                              


                     Wednesday, September 20, 2006

        House of Representatives, Subcommittee on Aviation, 
            Committee on Transportation and Infrastructure, 
            Washington, D.C.
    The subcommittee met, pursuant to call, at 2:02 p.m., in 
room 2167, Rayburn House Office Building, Hon. John L. Mica 
[Chairman of the subcommittee] Presiding.
    Mr. Mica. I would like to call this hearing of the Aviation 
Subcommittee to order. Welcome, everyone, today.
    The subject of today's hearing is oversight of Federal 
Aviation Administration safety programs, and the order of 
business is going to be as follows:
    We will have opening statements from members, and we have 
one panel of witnesses, I see, today. I also have had requests 
from a number of members, some who sit on the Transportation 
and Infrastructure full committee, but not on our Aviation 
Subcommittee; and then we have requests for members who are not 
on the T&I Committee, who also have asked to participate.
    So I am going to entertain a unanimous consent request from 
Mr. Costello that these Members be allowed to participate after 
members of our committee are heard. Without objection, so 
ordered.
    So we do welcome other Members to participate and, again, 
give preference to those on our subcommittee who will 
participate first. So with that under way, I will open the 
proceedings today with my opening statement. I yield to Mr. 
Costello, and then other members who wish to be recognized, and 
then we will proceed to our panel of witnesses.
    As I said, today's hearing will focus on oversight of our 
Federal Aviation Administration's safety programs. We are 
conducting this hearing at a time when America's aviation 
system has been safer than at any time in our history. In fact, 
the remarkable safety record achieved in the last several 
years, I believe, is the result of sound safety policy and 
continuous oversight.
    Safety is the number one priority of our subcommittee. It 
is also the number one priority of the FAA and the users of the 
aviation system. That is why I believe also that the U.S. 
aviation system is the safest in the world.
    In fact, we have got a slide up there; if you want to look 
at that, it does show how good our performance is vis-a-vis 
other areas of the world. That safety record is clearly 
reflected by the table that we have displayed, and with the 
data from the Aviation Safety Network of the Flight Safety 
Foundation, which is an independent, nonprofit, international 
organization engaged in research, auditing and education--also 
advocacy and publishing--to improve aviation safety.
    The table sets forth the percentage of world departures 
versus the percentage of accidents by international region. 
Even though 42 percent of all the world's departures are in the 
North American region, North America accounts for only 8.6 of 
the world's accidents.
    Aviation is also, by far, the safest form of transportation 
in the United States. You are about 40 times safer in an 
airliner than on the safest stretch of any highway in our 
country today. And today and every day of the year, 
unfortunately, more than a hundred people will die in 
automobile accidents, just to give you some comparison.
    Since 2001, the FAA has handled 50 million successful 
flights with 2.7 billion passengers flying on commercial 
aircraft in the United States and arriving at their final 
destination safely. This safety record is all the more amazing 
when you consider how incredibly complicated our U.S. aviation 
system is. On a typical weekday in the United States, there is 
an average--and this is an average--of 33,000 commercial and 
55,000 instrument flight rules departures.
    I think we have got a slide up there that we will now 
address. This slide shows--and was produced by the Aircraft 
Owners and Pilots Association; it is on their Web site, and it 
shows the latest statistical data available from the National 
Transportation Safety Board, and is current through August 25, 
2006. The data includes both fatal and nonfatal accidents.
    This graph also shows the year-to-date change of accident 
counts compared to the previous year. With the exception of 
business and corporate and executive operations, all other 
types of operations, including commercial and general aviation, 
have seen a reduction in the number of accidents compared to 
the same period just last year in 2005. And we may have some 
questions for our panelists about the exception category.
    Let me just say a few other areas where safety has 
improved. The fatal accident rate for commercial carriers is, 
in fact, down. Ten years ago the rate was 0.51 fatal accidents 
per 100,000 departures. Today, the rate is less than half 
that--well, even--far less than that. What is that, about--do 
the math on it here. But it is .02 percent, so it is down 
absolutely dramatically.
    General aviation fatal accidents have also dropped. The 
number of fatal accidents through May 2006 is 36 less than in 
the same period of 2005.
    Emergency medical aircraft accidents have been cut in half 
in 1 year from 2005 and 2006.
    We are all aware that the risks associated with flight 
cannot be eliminated completely. In fact, we have been very 
boldly reminded of that with the Comair accident in Lexington, 
Kentucky, last month, and that was a sobering reminder that 
again we still can have accidents in our aviation industry. So 
while flying is by far the safest mode of transportation, we 
must continue to strive for an even safer aviation system.
    The witnesses for today's hearing will provide detailed 
testimony on the aviation industry's safety record as well as 
issues that they believe should be addressed, including--some 
of the issues we will hear about are runway safety, operational 
errors, training, the inspection processes, aging aircraft, 
center fuel tanks, air tours and emergency medical service 
flights.
    They will also highlight emerging issues that they believe 
will require our attention as the system continues to expand, 
areas such as the new, very light jets, unmanned aircraft 
systems and commercial space transportation. These are all very 
important issues for the Aviation Subcommittee, and 
particularly as we assess the continued safe operation of our 
National Airspace System.
    Another emerging issue that has been the subject of much 
review is ensuring that we have adequate air traffic control 
and safety inspector training and staffing levels to deal with 
expected retirements and the growing use of our airspace 
system. This discussion should include not only FAA's workforce 
plan and staffing models, but also ways to create efficiencies 
such as consolidating FAA facilities and expanding FAA--our FAA 
contract tower program.
    In particular, I believe we should closely examine the 
benefits both in terms of safety and funding and the 
consolidating, I should say, of FAA terminal radar approach 
control facilities, also known as TRACONs. Due to the 
improvements in technology, the FAA is able to consolidate 
TRACONs that are located in close proximity to one another and 
whose separation--separate operation is highly inefficient at 
the current time. The benefits of TRACON consolidation include 
reducing controller workload, decreasing facility overhead 
staffing requirements, enhancing safety and efficiency within 
the system, and still providing, I think, even better 
redundancy and backup in the system.
    Another hugely beneficial program in terms of meeting 
future staffing needs is our FAA contract tower program. We 
have this in a number of airports. We have an outstanding 
record, and I am going to ask that we submit that rather than 
review it for the record. Both the contract tower program and 
the TRACONs consolidation proposal, I believe, deserve due 
consideration as we evaluate the best way to ensure adequate 
staffing in the future.
    In terms of ensuring aviation's safety, no one would argue 
that air traffic controllers don't have a very important role 
and certainly, at times, have a stressful job. They do have a 
stressful job and an important role, and that is why our air 
traffic controllers are now one of the highest paid government 
groups in our entire Federal Government.
    This subcommittee has been closely monitoring the FAA 
staffing and hiring plans, and we have held hearings on that 
topic. Since 2001 the FAA has hired some 2,500 controllers. To 
date, the FAA has hired 920 controllers and expects to hire a 
total of 1,100 during fiscal year 2006 alone. The FAA's fiscal 
year 2006 onboard staffing target, I am told, is some 14,670 
controllers. This reflects a ramping up of hiring in order to 
replace controllers who, FAA anticipates, will retire in the 
next few years.
    As of September 3, there were 14,537 controllers on board. 
The FAA expects to meet its staffing goals by the end of 
September. Unfortunately it appears that some have chosen the 
unfortunate tragedy of Lexington, the Lexington Comair crash in 
August, to forward their own agenda.
    It is important to note that the accident investigation on 
that particular crash is still being investigated by the NTSB. 
They haven't reached any final conclusion on the cause of the 
accident, and we will pay close attention to their findings.
    It is important to note that we have over 100 commercial 
air service airports across the country with no tower and no 
air traffic controllers, and they all function very well. I 
believe that efforts to make that accident and the tragic loss 
of life that occurred on that day a sounding board for one's 
own agenda is not in very good taste.
    I am confident the NTSB--and I have talked with officials 
there that are involved in the investigation--will consider all 
factors, eliminating some and drawing appropriate and fact-
based conclusions. Second-guessing and sharing piecemeal bits 
of information is not only inappropriate; I think it is 
uncalled for.
    Today's witnesses will highlight areas where they believe 
we can improve safety of our already very safe aviation system. 
There is always room for improvement. This is a very healthy 
exercise. Actually, this hearing was requested by the ranking 
member long before the terrible accident in Lexington. So it is 
not a reaction to that particular serious accident.
    As we engage in discussing the important safety issues 
today, I want members not to lose sight of the fact that the 
United States does, in fact, have the safest aviation system in 
the world. We have got some great people working at FAA. They 
have set standards that are adopted by the world, and we look 
forward to hearing from our witnesses on ways that we can make 
our system even safer.
    With that, those long opening statements--actually I had 
some longer ones which we will put in the record. By unanimous 
consent, so ordered.
    I will be yielding to Mr. Costello in just one second. 
Don't usually take a point of personal privilege, but I have a 
number of personal constituents from my district, and I think 
most of you on the panel have done this before, and I have had 
to put up with it.
    I am pleased to have from the Seventh Congressional 
District of Florida, and I think many of you know, Members, 
that we have had both cancer survivors and those who are here 
speaking on behalf of increasing Congress' efforts towards 
research and cure. So I am very pleased to welcome you to my 
subcommittee. Sorry you had to endure my long opening 
statement, but if you all weren't here, I would have made them 
listen to even more. So thank you, and you are welcome.
    Thank you, Mr. Costello. You are recognized.
    Mr. Costello. Mr. Chairman, thank you, and I thank you for 
calling the hearing today. As you mentioned, we requested this 
hearing several months ago in order to examine the issue of 
safety.
    Let me also say that I want to make it clear for the 
record--Mr. Chairman, I want you to hear this if you will--I 
know of no one on this side of the aisle that is attempting to 
use the Comair tragedy to further a personal agenda; and I want 
to make that clear. And if there is anyone on our side of the 
aisle that is doing that, I certainly would want you or anyone 
else to identify who that might be.
    I do appreciate your responding to our request for this 
safety hearing today. I believe that safety is the number one 
issue that this subcommittee has the responsibility of dealing 
with. As the chairman pointed out, the United States does have 
the safest air transportation system in the world, with the 
fatal accident rate of about one in every 16 million flights. 
However, we must not become complacent about our past success.
    The recent crash of Comair Flight 5191 has once again 
placed aviation safety in the spotlight. It is the 
responsibility of this subcommittee to make certain that the 
FAA is fulfilling its duties to provide effective safety 
oversight in every aspect of the aviation system from aircraft 
maintenance to air traffic control to runway safety.
    Both the GAO and the Department of Transportation's 
inspector general have highlighted numerous safety issues of 
concern including the use of noncertificated repair stations 
and maintenance outsourcing in general, runway incursions, 
inspector staffing and general concern about the FAA's ability 
to meet the changing needs of the airline industry. And it is 
because of these GAO reports and the inspector general's issues 
that they have raised that we asked for this hearing today.
    I am particularly concerned about the increased use of 
aircraft maintenance, both foreign and domestic repair 
stations. Airlines continue to look for ways to trim costs by 
outsourcing maintenance of their airplanes.
    In January of 2005, The Wall Street Journal did a 
comparison of wages paid by U.S. carriers, both wages and 
benefits, and compared them to outsourced maintenance stations 
in North America, Europe, Asia and Latin America. It is very 
clear to me, and I think it is clear to anyone, that the U.S. 
airlines are relying more heavily on outside contractors to 
perform everything from routine maintenance to major overhauls 
in order to cut their cost.
    According to the DOT inspector general, U.S. air carriers 
now outsource 62 percent of their maintenance expense, compared 
to just 37 percent in 1996. The IG noted in a June 2005 report 
that the FAA safety oversight has not kept pace with changes in 
the aviation industry, including increased maintenance 
outsourcing. This was evident in the 2003 crash of Air Midwest 
Flight 5481 in Charlotte, North Carolina, which killed 21 
people. The NTSB found that deficient maintenance by a third-
party repair facility and lack of oversight by both the FAA and 
the air carrier of the work being performed by the repair 
facility contributed to this crash. Safety must not be 
compromised in an effort to save money or for a lack of 
resources and oversight.
    Another area of concern to me is personnel. The FAA is well 
below the safety staff necessary to fulfill its critical safety 
mission, including the oversight of our air carriers, as well 
as foreign and domestic repair stations. The FAA, according to 
the statistics and numbers that I have, have a total of 68 
inspectors to oversee 688 foreign repair stations; and in fact, 
in a recent conversation I had with an employee of the FAA, I 
was informed that only six inspectors were responsible for 
inspecting 99 foreign repair stations in the FAA's facility out 
of Singapore.
    The commercial aviation industry is constantly changing, 
and the FAA's ability to change and adapt with that is very 
questionable. As this subcommittee moves toward the FAA 
reauthorization, we must make certain that the FAA is able to 
meet its mission of safety first and foremost.
    One final point: I have real concerns about the speed and 
the completion at FAA with rulemaking. For example, the 
Department of Transportation compiles a list of significant 
rulemaking, giving the status of each rule and where it is in 
the process. For the FAA, 21 significant rulemakings are 
listed; only three of them are on schedule, and 17 are either 
behind schedule or have no schedule at all. Many of these deal 
with important safety issues.
    In December of 1996, not even 6 months after the TWA 800 
flight tragedy, the NTSB strongly recommended the installation 
of a nitrogen safety system to reduce fuel tank flammability 
across the fleet for U.S. commercial air carriers. Yet today--
it was December of 1996, yet today we still do not have a final 
rule, almost 10 years later.
    Aviation safety is the number one issue that this 
subcommittee should be concerned with. We must continue to ask 
tough questions, issue the even tougher and sometimes costly 
rules, and push forward in order to ensure the highest level of 
safety for the travelling public.
    With that, Mr. Chairman, I will, as you did, submit the 
rest of my statement for the record, and yield back the balance 
of my time.
    Mr. Hayes. [presiding.] I thank the gentleman for yielding, 
and I will take my time, since I have changed seats, to thank 
you and Chairman Mica for giving very well informed, 
comprehensive, crucial and relevant opening statements.
    This is a safety hearing. Until the accident rate reaches 
zero, until the fatality rate reaches zero, until we are zero 
across the board, we will continue to appropriately have these 
hearings.
    As I look at the system today I am impressed, constantly, 
having flown as recently as today in the system, at the 
professionalism, the competence, the tremendous contribution 
that our controllers make to our air traffic system. By the 
same token, the FAA is absolutely conscientious--not perfect--
in the prosecution of their mission.
    What is left? The pilots. We also have a huge part to play 
in the outcomes of aviation safety today. And I won't quote the 
additional figures because both the ranking member and the 
chairman have given you a very clear idea. We are moving in the 
right direction, and we have the safest system in the world, 
but zero is still the target that we all desire.
    Now, I have talked to my friend, Mr. Costello, about the 
situation that occurred in Lexington. That is not the focus of 
today's hearing, but it is something that I am sure we will 
discuss. Unfortunately, it was misreported. It was not the 
controller's fault, it was not the FAA's fault; those are 
simply the facts.
    We have, that I know of, three pilots here--myself, Mr. 
Salazar and Mr. Graves, maybe others; and we have a certain 
knowledge of what goes on and why. And unfortunately, again for 
whatever reason, the press has created an incorrect perception 
of what happened there. It wasn't the controller's fault. It 
wasn't the FAA's fault.
    Same thing happened when we had an incursion--and 
unfortunately, Mr. Chandler, Kentucky was involved again. When 
we had the incursion in the airspace in Washington several 
years ago, I went through every step and visited every facility 
to track down exactly what happened to improve safety and to 
see how we prevent that in the future.
    We got there. By the time we arrived, having carefully 
looked, the press had gone away. They weren't interested at 
that point.
    But, again, back to the purpose in being here today, it is 
to continually, at every step of the way, make sure that we are 
doing everything that we reasonably, responsibly and in any way 
can do to make this the perfect aircraft safety transportation 
system, realizing full well that human beings are flying 
mechanical devices called airplanes.
    Again, I thank each and every one of you for being here.
    Mr. Costello. Mr. Chairman, can I ask for 20 seconds to 
make a point for the record?
    I would agree with your assessments in our conversation. 
Everyone knows, as the chairman stated, the NTSB, regarding the 
Comair fatality and tragedy, has not concluded their 
investigation; and as you have said, no one has indicated that 
it was the air traffic controller's fault.
    But I do want to make clear for the record that the FAA has 
said that a directive that they had issued--two controllers 
should have been on duty at that tower at that time when, in 
fact, one was on duty--that their own directive was not 
followed. And I just want to make that clear for the record.
    That is not to say that the tragedy would not have 
happened, but the directive was not being followed by the 
person in charge of the air traffic controllers in that region.
    Mr. Hayes. Very relevant comment, and not necessarily in 
response, but the other side of that is, the comment made by 
the FAA was relevant to another situation in a different place 
at a different time.
    And again, what--I don't want people to come away, and I am 
sure you don't either--you have to have controllers in a tower 
for aviation to be safe. You don't have to have one, you don't 
have to have two, you don't have to have three. All kinds of 
things that you might do, but at what point do reason and 
common sense take over?
    But the controller who was there did exactly what he was to 
do. Again, we are not arguing for the fact, for the record, for 
the public responsibility of the controller is to separate 
traffic, get them to the point of departure. You are cleared to 
runway--I don't have the diagram in front of me--26. They 
stopped at 22. So you know, that is--the FAA misspoke, NTSB 
misspoke.
    But that is not why we are here today. We want to make sure 
that the lessons we learn are correct and that we apply them 
appropriately going forward so that everybody can be as safe as 
they possibly can be. Again, thank the gentleman.
    Mr. Chandler, you are recognized.
    Mr. Chandler. Mr. Chairman, thank you. And for the record, 
I want to make it clear that I was not involved personally in 
the incursion into the Capital airspace except to the extent 
that I had to run for my life, like so many other people did. 
It was our governor.
    I appreciate the chairman and Ranking Member Costello 
holding this hearing today, and I am sorry that it is timely in 
respect to my district. And while we do have the best safety 
record in the world in our country, and we are very proud of 
that, I believe it is appropriate to ask questions when a 
tragedy occurs. And the August 27 Comair Flight 5191 crash 
occurred in my district at the Blue Grass Airport in Lexington, 
Kentucky. It resulted in the deaths of 49 people, and has not 
left one person in central Kentucky unaffected.
    One of the many issues that has been raised after the crash 
is that of FAA tower staffing, and let me read a number of the 
headlines that were published by the two local newspapers, the 
Lexington Herald Leader and the Louisville Courier Journal: 
"tower Should Have Had Two Controllers; FAA Acknowledges It 
Broke Its Own Rules; FAA Controllers Clash on Staffing; 
Controller Had Two Hours of Sleep; New Shift Began Nine Hours 
After Last Shift Ended; Controllers Say They Will Have to Work 
When Tired."
    Now, this has caused a great deal of confusion about what 
the FAA is doing, particularly regarding air traffic controller 
staffing. Earlier this month, the entire Kentucky delegation 
joined me in passing House Resolution 980, which expressed the 
House's condolences to the families, the friends and the loved 
ones of the victims of Comair Flight 5191. I am grateful for 
the House's support, but we must also answer the many questions 
that remain in the wake of this terrible accident.
    It is premature, I believe, to speculate on the causes of 
the Comair crash, but it is not premature to ask what Congress 
and the pertinent Federal agencies must do to improve our 
Nation's safety policies as we move forward. It seems critical 
to me that the FAA promote policies that lead to happy and 
well-qualified air traffic controllers operating in a well-
staffed environment. These are serious questions--there are 
serious questions as to whether this goal was being properly 
pursued.
    On September 6, the FAA briefed Mr. Oberstar, Mr. Costello 
and me on the Comair accident. On page 14 of the briefing 
packet that they gave us, the FAA stated, "We have now ensured 
that all FAA tower managers understand that during the midnight 
shift, regardless of low traffic levels, they should normally 
schedule one controller for the tower control function and one 
controller for the radar control function."
    However, on September 12, the Lexington Herald Leader 
published this story with the headline "Another Brush With 
Short Staff, Indianapolis Almost Took Radar Duties for 
Lexington." why did the Lexington air traffic control tower 
nearly relinquish critical radar duties not even a week after 
FAA officials personally assured us that they had addressed the 
staffing problems at that tower?
    It is not comforting that Lexington's air traffic control 
tower ultimately may do with half of its normal number of 
controllers. And that same night, between 3:00 and 4:00 a.m., 
in Louisville, Kentucky, the airport did relinquish its radar 
duties to Indianapolis due to a lack of controllers.
    We must make a better effort to address these sorts of 
staffing shortfalls before they require last-minute decisions 
like the ones I just mentioned.
    The Louisville incident is reminiscent of the staffing 
shortages faced by the Lexington control tower on the morning 
of the Comair accident. And so we should be concerned because 
the FAA has yet, in my view, to address its staffing problems.
    That is a safety issue, but the Comair incident raises 
other questions that I would like to address today. First, I 
want to know why the FAA is issuing major safety policies via 
verbal guidance rather than through written correspondence with 
its towers.
    Second, I want to hear more about who is responsible to 
ensure that pilots have an up-to-date understanding of runway 
layouts.
    Finally, I want to ensure that the NTSB has all the 
resources they need to conduct a comprehensive investigation of 
this tragedy.
    Our Nation has the most aviation traffic in the world, as 
we have seen, and we maintain the highest safety standards in 
the world. That is something for us all to be proud of, but we 
must not, and I am sure that we will not, rest on our laurels. 
Therefore, I hope as we go forward that we work together to 
ensure that we are doing everything possible to prevent 
tragedies like Comair 5191 from occurring again in the future.
    Thank you, Mr. Chairman.
    Mr. Hayes. I thank the gentleman for most appropriate 
comments and remind him that the governor was in the back. He 
didn't even know what was going on.
    Mr. Graves is recognized.
    Mr. Graves. Thank you, Mr. Chairman. Thank you very much. 
And I appreciate the opportunity to speak today and have this 
hearing.
    Aviation is obviously near and dear to many of us, and you 
know, it is very important. As a pilot, I am concerned about 
our safety, as I know you are. I am taking a little bit 
different focus. I am interested in general aviation and what 
is going on there and the safety there.
    I know this is one of the safest periods we have ever had 
in aviation. I think we can always do a little bit better, but 
I enjoy hearing--or I am looking forward to hearing today what 
the FAA's ideas are, and what their advancements in safety and 
what their plans are to make the skies even safer; but I am 
particularly interested in regards to general aviation. The 
accident rate for general aviation pilots has gone down, but I 
do believe too many accidents are occurring.
    There are a number of great programs out there that the FAA 
has put out, a number of materials, guide books, a lot of 
information. I know a lot of the private organizations have put 
together some great programs, mentoring programs, out there for 
new pilots; and the plethora of technology, which just 
continues to get better, is making the skies safer all the 
time. But I want to make sure that as we move forward and we 
modernize the system that general aviation isn't left behind 
and is very much considered, that we don't strangle them with 
so much regulation that it pushes some aspects of general 
aviation out.
    I am also additionally concerned about the implementation 
of the new contract between the FAA and air traffic 
controllers. I am afraid there could be some confusion among 
controllers. Our air traffic controllers are obviously folks 
that guide a lot of aircraft through a lot of different types 
of weather and through some of the busiest airports in the 
world; and we want to make sure that--you know, that they are 
considered as this contract moves forward.
    But having said all that, I do want to thank and commend 
the FAA and everybody from the Department of Transportation and 
the NTSB for a fantastic job in terms of safety. This has been 
an incredibly safe period of time. And I am proud of that 
aspect and proud to be a part of it, but again looking forward 
to this hearing.
    Thanks, Mr. Chairman.
    Mr. Hayes. Thank the gentleman for his comments.
    And Mr. Pascrell is recognized for any statement he might 
have.
    Mr. Pascrell. Thank you, Mr. Chairman. Far be it from me to 
defend the press; I have a different slant.
    Before I get into that, I want to commend Chairman Mica for 
today, exposing what the committee has talked about in terms of 
the detection of explosives in passenger luggage. It is a 
disgrace, and it would seem to me, Mr. Chairman, that the FAA 
and the TSA better get their act together--yesterday.
    Whether this Congress has the will to do what is 
necessary--and I think the chairman laid out specifics and this 
committee discussed them. So we are not here to exchange 
pleasantries today; I want you to know that.
    I want to thank the Chair and the ranking member for 
putting this together. It is unconscionable that to end a 
contractual agreement in the midst of a labor dispute is 
absolutely not only unacceptable, but has put people in 
jeopardy. And I want to address that today and not soft-coat 
it.
    The FAA's self-described mission is to provide the safest, 
most efficient aerospace system in the world. They are tasked 
with regulating the National Airspace System, to promote safety 
and reduce and eliminate aviation accidents; that is their 
charge.
    In 1997, in response to the TWA 800 crash, the White House 
Commission on Aviation Safety and Security recommended that the 
FAA set a target to reduce the airline fatal accident rate 
fivefold in 10 years. Over the last 4 years, the fatal accident 
rate has reached an all-time low. However, having a target rate 
for accidents that is anything more than zero is frankly a bit 
macabre. One accident we would agree on either side of the 
table is one too many.
    The skies over New Jersey and New York are the busiest in 
the world and are expected to grow even more crowded over the 
coming years. By 2015, domestic passenger traffic will nearly 
double to 1 billion passengers annually. This creates not only 
an air traffic nightmare, but a real safety concern.
    The National Airspace Modernization effort launched by the 
Reagan administration in 1981 was supposed to be completed by 
1996 at a cost of $2.5 billion; $43.5 billion later, it is not. 
This committee has responsibilities of oversight and 
accountability. This effort has been fraught with significant 
cost overruns, delays, has had numerous high-profile program 
failures. A full 10 years after the original completion date, 
we are still awaiting modernization of our airspace system. The 
GAO, certainly an objective agency in government, in a review 
of the FAA's work on this project, reported this:
    "the FAA did not recognize the technical complexity of the 
effort, realistically estimate the resources that would be 
required, and adequately oversee its contractors' activities or 
effectively control system requirements," unquote--quote-
unquote.
    In addition to poor planning, the FAA has failed to gain 
appropriate cooperation and involvement by the private sector, 
nor have major stakeholders been sufficiently involved in the 
process. Aside from the major system development, it is my 
understanding that some of our nation's major air traffic 
control centers do not yet even have some of the most basic 
upgrades.
    Last April, the Air Traffic Organization released a 
preliminary cost estimate that found that the latest project 
would cost a total of $18 billion. This is in addition to the 
$50 billion needed just to sustain the existing air traffic 
control system between 2008-2025.
    This subcommittee has shown consistent support for the goal 
of modernization. We have been supportive of that; no one can 
point to anything different. Yet our task is made more 
difficult by the fact that a lot of time and funding has gone 
into this project, and the results are sorely lacking.
    Technological advancements have contributed to the 
remarkable decline in fatal commercial air carrier accidents, 
but technology cannot do it alone, and I would contend people 
are still the most vital factor in air safety and in 
controlling the airways. You can have all the technology in the 
world, and if the people don't know what they are doing or 
there are not enough of them or they don't get proper rest or 
we don't give attention to it except when there is an accident, 
there is something wrong. And there is something wrong here, 
dramatically.
    I think that this seems to have been a factor in the fatal 
crash in Kentucky. According to those reports, there was only 
one air traffic controller working at Lexington that morning; 
correct me if I am wrong. The FAA acknowledged violating its 
own policies when it assigned only one controller to the 
airport tower that morning.
    Now, what would possess the FAA to do that? And at how many 
more airports is that the case? And God forbid, if there is 
one, if that individual male or female has a catastrophic 
illness all of a sudden, who do we turn to? Who do we turn to?
    It appears that one result of that violation--and we know 
what the disaster was. So I believe that the FAA has come to 
grips with some very serious air traffic controller staffing 
issues. And, really, when I read that in the future we are 
going to change procedures and technology and we are going to 
reduce the number of controllers--and I would like to know how 
we are going to do that, I am trying to figure this out very 
carefully.
    So I am sure that you will place me on the right path 
because I think we all want the same thing; and if we do, then 
we can't play games about this and wait for tragedies. We are 
long past the time when the redesign of the system should have 
been done, and I am not satisfied that we are even close.
    So, Mr. Chairman, I ask that you read The New York Times 
article, September 20, about reducing staffing levels. And 
nobody else wants to talk about it.
    I want to talk about it.
    Mr. Mica. [presiding.] I thank the gentleman, and we will, 
I am sure, be asking questions in that regard.
    The gentleman from Texas has requested to be recognized. 
Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. I want to thank you for 
holding this important hearing.
    Down there in Texas, Bush Intercontinental Airport is in my 
district, the headquarters of Continental Airlines. So when it 
comes to talking about aviation safety, of course, as all 
members here do, I take these matters very seriously, because 
we are talking about risking the lives of many people who are 
my constituents.
    Recently some air traffic controllers from Bush 
Intercontinental Airport have met with me--several times, in 
fact--regarding their staffing levels. Bush Intercontinental 
Airport is the fourth fastest growing airport in the world. It 
recently opened its fifth runway, and traffic continues to 
increase to about 1,700 operations every day.
    On one hand, I am glad the airport is growing and serving 
more customers. However, I am still concerned when I talk to 
air traffic controllers, how their numbers are smaller than 
they should be. Bush Intercontinental Airport is authorized to 
have 42 controllers; they have 29. They need at least 28 to 
fully staff throughout every day. This means they have one 
extra staffer to cover if someone gets sick or goes on 
vacation.
    This lack of staffing leads to unnecessary overtime being 
paid. It also creates extra wear and tiredness on the air 
traffic controllers as they pull additional hours to cover for 
each other.
    And next year, 10 of those 29 will be eligible for 
retirement. That is over one-third of the current workforce. 
However, they are only expecting six, maybe eight new 
controllers to be added to the tower. This situation isn't 
helping retain our current aging controller workforce nor has 
it taken the staffing level up to the authorized 42 staffing 
level where it should be.
    And this is not a unique problem at Bush. It occurs all 
over the country with our aging air traffic controllers. So I 
am concerned and curious to see what the FAA says about the air 
traffic controller staffing crisis and the aging air traffic 
controllers crisis that are before our Nation.
    And thank you, Mr. Chairman. I will yield back.
    Mr. Mica. Mr. DeFazio, you are recognized.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Chairman, I would 
like to associate myself with the remarks of the gentleman who 
preceded me. Excellent questions, well poised; and I hope they 
can be addressed.
    I think we have a system under extraordinary stress when 
you think about deregulation and bankruptcies that have 
resulted--the economic pressures in the industry itself, the 
pressures that are being exerted, both ideological and 
budgetary, by the current administration. Anywhere you look, 
the system is stressED.
    Mechanics or mechanical work is being outsourced to foreign 
countries because it is cheaper, not because it is safer, 
better, more desirable or meets security needs. Noncertified 
repair facilities are being used by desperate airlines. The FAA 
hasn't taken adequate steps to address that. I hope to hear 
about that.
    Our air crews are under stress. I spent about half of a 
recent flight talking to a flight attendant who was telling me 
how her pension was going to be about $200 a month, and she had 
lost all her stock and 401(k), let alone what has happened to 
the pilots and others.
    ATC is now under stress because of the arbitrary imposition 
of work rules and an agreement by this administration. You 
know, there are numerous reports there.
    And Mr. Poe just talked about another aspect of that. The 
equipment is not adequate. We are way behind schedule in terms 
of updating the equipment for our ATC system. And now we have 
new stresses, you know, the proliferation of private jets, the 
very light jets, again which is a symptom of all the other 
problems because anybody who can afford to is fleeing the 
commercial system, and going to private jets to avoid it.
    I think we have a system in crisis. I think it is only a 
matter of time, you know, when and where it is going to break 
again. And I am hoping that this hearing is the beginning of a 
plan to rebuild the integrity at each and every level that I 
just described.
    Thank you, Mr. Chairman.
    Mr. Mica. Additional members seeking time?
    Mr. Matheson.
    Mr. Matheson. Thank you, Mr. Chairman. And I associate 
myself with the previous remarks about stress on the system in 
addition to the staffing levels within the control towers.
    I also want to raise the issue of staffing for maintenance, 
and I want to refer to an article dated August 5, 2006, in the 
Salt Lake Tribune about an incident that occurred at the Salt 
Lake Airport, and I am just going to read a few passages from 
that during my opening statement. It describes the following:
    "A sudden loss of both radio and radar communications 
Thursday at the Salt Lake City International Airport occurred 
while six passenger jets were in the air sent air traffic 
controllers scrambling for alternative communications to keep 
the skies safe.
    "Federal Aviation Administration technicians conducting 
routine maintenance of a backup generator were to blame, but 
the controllers didn't know that. All they knew was the weather 
was getting worse.
    "'we were panicked,' Brady Allred, a controller at the 
airport's Terminal Radar Approach Control tower said Friday, 
'We had a half dozen planes in the sky, a couple thousand 
people.'"
    Fortunately, no one was hurt in this incident.
    "Allred said the scene was barely controlled desperation as 
controllers broke out cell phones, whose use FAA prohibits in 
the towers, to seek help from other control centers and Hill 
Air Force Base," which is nearby the Salt Lake City airport.
    "'we had no ability to see the airplanes or to talk to 
them,' said Allred, a spokesman for the controllers' union. 'we 
have battery backup, we have a huge generator, we have all 
kinds of redundancies but for some reason they didn't work.'
    "'that's because they were all turned off,' said Allen 
Kenitzer, an FAA spokesperson based in Seattle.
    "'to put it bluntly, this was human error,' he said.
    "the outage was planned. Technicians who were testing a 
backup generator ended up turning off all power to the radar 
and the radio system.
    "told Friday the reason for the outage, Allred," from the 
controllers union, "fumed, 'Why pick a day when thunderstorms 
are blowing through to test a backup generator?'
    He pointed out the only bright side was "relatively few 
flights were coming in and out of the airport at the time. 'had 
the outage occurred 45 minutes earlier or 45 minutes later, it 
would have been chaos,' he said.
    Now, Kenitzer, the spokesman for the FAA, "said it was a 
management decision"--and this is the key to all my comments 
here--"it was a management decision to test the backup system 
during the day instead of at night, when it would have been 
more expensive."
    Now, he said, "While pilots couldn't have landed on visual 
flight rules because they couldn't have seen the runway through 
the clouds, said Kenitzer, safety was never compromised. There 
was never a total break in communications," according to the 
spokesman from the FAA.
    "Mr. Allred," from the controllers union, "said he is still 
gathering information on the power outage. During the past 5 
years, there were other situations in which controllers lost a 
critical component, but losing both radio and radar 'was the 
worst,' he said, and he denied the FAA's claim 'that there was 
no danger.' he said, 'That's what the FAA always says, but the 
reality was, it was scary.' he said, 'Safety was compromised.'"
    I just bring this to light because I think this is an 
incident that reflects a broader issue here about scheduled 
maintenance and an effort to try to cut costs; and I think we 
are compromising safety, and we have a classic example right 
here.
    I look forward to hearing the witnesses' testimony. And I 
wanted to make sure they were aware of what happened in Salt 
Lake City in August of this year.
    Thank you, Mr. Chairman. I will yield back.
    Mr. Mica. Thank you.
    Do any other members seek recognition at this time?
    If not, what we will do is turn to our first panel of 
witnesses, and we have on panel Mr. Nick Sabatini, who is the 
Associate Administrator For Aviation Safety with the FAA; Mr. 
Thomas Haueter, Deputy Director of the Office of Aviation 
Safety at the National Transportation Safety Board; Mr. Gerald 
Dillingham, Director of Physical Infrastructure Issues with the 
United States Government Accountability Office; and we have Mr. 
Todd Zinser, Acting Inspector General at the Office of 
Inspector General, the U.S. Department of Transportation.
    Welcome. I think most of you have been before us before. If 
you have anything lengthy or a report you want to be to made 
part of the record, just seek recognition through the Chair, 
and we will accommodate you. We won't hold you to the j5 
minutes, but as you can see, there will be some questions from 
members who are in attendance today.
    So, with that, let's turn to our number one expert on 
aviation safety, Mr. Sabatini with the FAA.
    Welcome back, and you are recognized.

  STATEMENT OF NICHOLAS SABATINI, ASSOCIATE ADMINISTRATOR FOR 
        AVIATION SAFETY, FEDERAL AVIATION ADMINISTRATION

    Mr. Sabatini. Thank you. Mr. Chairman, Congressman 
Costello, members of the subcommittee, I am pleased to appear 
before you today to discuss the current state of Federal 
Aviation Administration aviation safety oversight.
    My primary message to you today is that despite the tragic 
accident that took place in Lexington, Kentucky, last month, 
the safety record of aviation in the United States is 
extraordinary. And while the Kentucky accident serves as an 
important reminder that our work as safety professionals is 
never done, we remain in the midst of the safest period in 
aviation history.
    In the past 3 years, U.S. scheduled air carriers have 
transported approximately 2.2 billion passengers, or 7 times 
the population of our United States. Over that time period, we 
have had a total of 78 passenger fatalities. All of us who work 
for or with aviation professionals can take pride in the 
results of our collective efforts, especially given the 
economic turbulence that has been experienced by U.S. carriers 
in recent years.
    I am here to admit to you that while I take great pride in 
the current state of aviation safety, the FAA has no intention 
of becoming complacent. Aviation is extremely dynamic, and the 
FAA must be prepared to not only keep pace with, but stay ahead 
of changes in the industry.
    In the early 1990's, the Boeing Company projected that if 
the aviation industry did not take strong preventive measures 
in safety initiatives in commercial aviation, the projected 
growth in the operations over the next 20 years would increase 
the number of hull-loss accidents worldwide to approximately 
one every week. This was a wake-up call to all who work in and 
care about aviation.
    I would like to direct your attention to the chart 
currently on the screen. It shows an accident rate that not 
only has not risen, as Boeing feared, but has declined 
appreciably. Because of work done collectively by government, 
industry and operators today, a fatal accident occurs about 
every 15 to 16 million commercial flights, an accomplishment 
about which we can all be proud.
    By no means do I want to downplay the Kentucky accident, 
but it must be put into context so the flying public 
understands that our system is extremely safe. In fact, pilots 
are actually safer on the job than when they are not at work.
    At about the same time, both the White House Commission on 
Aviation Safety and Security and the National Civil Aviation 
Review Commission recommended the adoption of a goal of an 80 
percent reduction in the fatal accident rate by 2007. FAA and 
industry embraced this recommendation and have made significant 
inroads in meeting the goal. In virtually all segments of the 
aviation industry, the accident trend lines are going in the 
right direction.
    The FAA sets annual goals for itself, and we are meeting 
them. We know the system is safe, but it is difficult to 
measure the nonevents, the accidents that did not happen, the 
headlines that were not written, the lives that were not lost. 
Only over time can we begin to quantify how our safety 
initiatives are working. We can plot data points to represent 
when certain safety initiatives were implemented and then we 
can document the absence of failure, the lack of accidents.
    This brings me to my second chart, which does just that. I 
would like to bring your attention to the blue shaded area. It 
represents the accidents that did not happen. As you can see, 
it tells quite a dramatic story. We are no longer dealing with 
"common cause" accidents.
    As the name suggests, common cause accidents are a series 
of accidents that were caused by a similar problem, such as 
engine failure, controlled flight into terrain and loss of 
control, to say--to just list a few examples.
    Now that we have tackled the obvious safety problems that 
cause multiple accidents, we are dealing with accidents that 
are each caused by a unique set of circumstances. We are just 
as committed to preventing these accidents, but due to the 
distinctive nature of each accident, it poses a greater 
challenge.
    I have stated repeatedly that FAA must not and will not 
become complacent when it comes to finding ways to improve an 
already safe system. The one certainty we must face is that 
humans make mistakes. It is the human condition. Therefore, our 
focus must be on making the total system more error tolerant. 
We have done a lot to create a series of intertwined defenses 
to trap the human error.
    This continues to be the challenge before us today. Working 
with my colleagues at this table, Congress, and our partners in 
the aviation industry, I am confident that safety can continue 
to be improved. We are moving into an exciting period of 
aviation with the advent of new aircraft types and systems. 
FAA's bottom line has always been and will continue to be that 
safety will never be compromised.
    Mr. Chairman, I know of your commitment and this 
Committee's commitment to finding solutions to the safety 
challenges we face. This afternoon I want you to understand the 
strength of my commitment and the commitment that exists within 
FAA at all levels of the agency to do what needs to be done to 
make a safe system safer.
    This concludes my prepared statement. I will be happy to 
answer your questions at any time.
    Mr. Mica. Thank you. And we will hold the questions until 
we have heard from everyone.
    And we have Thomas Haueter, Deputy Director of the Office 
of Safety with the NTSB.
    Welcome, sir, and you are recognized.

    STATEMENT OF THOMAS HAUETER, DEPUTY DIRECTOR, OFFICE OF 
     AVIATION SAFETY, NATIONAL TRANSPORTATION SAFETY BOARD

    Mr. Haueter. Good afternoon, Chairman Mica, Member Costello 
and other members of the committee.
    Mr. Mica. Pull that mike up as close as you can. I want to 
hear every word.
    Mr. Haueter. Thank you.
    Since becoming an independent agency, the Safety Board has 
issued over 3,500 aviation safety recommendations. Eighty-two 
percent of these recommendations have been adopted by the FAA 
or the aviation industry.
    We believe that through the Safety Board's accident 
investigations and recommendations, the United States enjoys 
the safest commercial air transportation system in the world. 
However, as the recent accident in Lexington, Kentucky, shows, 
we must maintain our vigilance and continue to find ways to 
make this very safe system even safer.
    The investigation of the accident at Lexington is ongoing 
and no recommendations or conclusions have been issued.
     Runway incursions continue to be an area of concern. On 
July 2006, a United 737 passenger jet and an Atlas Air 747 
cargo plane nearly collided at O'Hare International Airport. 
Only the evasive action by the pilot of the 737 prevented the 
accident.
    The runway incursion rate has not appreciably changed in 
the United States in the last 4 years, about 5.2 runway 
incursions per billion tower operations. Simulations of actual 
incursions show that the alerts may occur 8 to 11 seconds 
before potential collision. In recent incidents, controllers 
were not alerted in time to be effective.
    The investigation of the TWA 800 accident found that fuel 
tank design and certification that relies solely on the 
elimination of every ignition source, while accepting the 
existance of fuel tank flammability, is fundamentally flawed. 
In May 2006, a fuel vapor explosion occurred in the left wing 
of a Transmile Airline 727 in India resulting in substantial 
damage to the wing. The Safety Board believes that operating 
transport category airplanes with flammable fuel air vapors in 
fuel tanks represents an avoidable risk.
    The comment period on FAA's proposed rulemaking for 
flammability reduction is now closed. We hope that the lessons 
learned from TWA will be carried forward to prevent a similar 
accident.
    Aircraft icing is two different types of icing events, 
inflight icing and icing that occurs on the ground, more 
commonly called upper wing icing. In January of 2006, an 
American Eagle Saab 340 encountered icing conditions in 
departed controlled flight. Fortunately there were no injuries.
    An example of ground icing is the December 2004 accident 
involving Canada Air 600 that crashed shortly after takeoff 
from Montrose, Colorado. The flight crew failed to ensure that 
the airplane's wings were free of ice and snow contamination 
that accumulated while the airplane was on the ground.
    Industry continues to address these types of events on a 
case-by-case basis rather than incorporating standards as 
recommended by the Safety Board.
    The above cases are but a small sample of the Safety 
Board's efforts; there are additional areas of concern, such as 
landing distance calculations, emergency medical service 
aircraft, fatigue, turbine engine disk failure, helicopter 
servo actuators, air cargo, unmanned aerial vehicles or 
systems, flight recorders, and air tour operations.
    As I previously mentioned, the United States enjoys a very 
safe transportation system, and the Safety Board and staff are 
dedicated to continue to find ways to make aviation travel even 
safer.
    Mr. Chairman, that completes my statement.
    Mr. Mica. Thank you.
    And now we will hear from Gerald Dillingham with the U.S. 
GAO office.
    Welcome and you are recognized.

      STATEMENT OF GERALD DILLINGHAM, DIRECTOR, PHYSICAL 
  INFRASTRUCTURE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dillingham. Thank you, Chairman Mica, Mr. Costello, Mr. 
Oberstar.
    My testimony today focuses on three areas. The first is 
FAA's safety management system. The second area is training of 
the staff that are responsible for implementing that safety 
management system. And third is some of the key safety-related 
challenges that are on the horizon for FAA.
    With regard to the safety management system, the safety 
management system includes a complex array of people, programs 
and processes. It also represents a major cultural shift for 
FAA from the old "go out and kick every tire" approach to one 
that has focused on risk identification and mitigation through 
systems safety. I think that the long-term trends we see in the 
decline of commercial and cargo accidents, as well as a decline 
in serious runway incursions, are attributable to that system's 
approach, as well as the efforts of the wider aviation 
community.
    Mr. Chairman, I am, however, concerned that some of the 
recent developments may be the early warnings of a system under 
strain. The system is again experiencing widespread delays. 
There have been four fatal commercial aviation accidents this 
fiscal year, and FAA will not meet its commercial air carrier 
safety performance target for fiscal year 2006.
    General aviation continues to be involved in a significant 
number of fatal accidents every year. And although the cargo 
accident rate has been on a downward trend over the last few 
years, according to FAA, it is still as much as six times that 
of commercial aviation.
    There has also been a spike in the number of air ambulance 
accidents. Over the last 3 years, there were 55 air ambulance 
accidents with 54 fatalities, the highest number of accidents 
since the 1980's. FAA has also missed its performance target 
for the last 3 years for reducing the number of operational 
errors.
    Regarding my second issue, the training for safety-related 
staff, GAO's work for this committee has shown that FAA has 
made training an integral part of its safety oversight system 
and generally follows effective management practices for its 
training programs. Where we have made recommendations for 
improvement, FAA has generally agreed with those 
recommendations.
    With regard to my final issue, safety challenges on the 
horizon, the broadest and perhaps most difficult challenge will 
be to continue and complete the cultural transformation that is 
under way at the Agency, that is, transforming the safety 
oversight program from a direct oversight approach to the 
safety management system approach. We believe that this 
cultural change will take several years; and for FAA to know 
whether the cultural change is effective, it will have to 
increase both the quantity and quality of the data available to 
evaluate the initiative.
    A more immediate challenge is the replacement of over 
10,000, or 70 percent, of the controller workforce over the 
next 10 years. This staffing situation may even be more acute 
than was first realized since new data shows that the 
controllers are retiring sooner than estimated.
    A similar situation exists for safety inspectors. FAA 
anticipates losing over 1,100 safety inspectors over the next 5 
years. This will represent an average loss of about 200 
inspectors per year.
    Finally, Mr. Chairman, Mr. Costello, and members of the 
subcommittee, the early indications from some of the studies 
that we currently have under way for this subcommittee suggest 
that the changing aviation landscape would pose additional 
challenges for FAA. For example, it is expected that within the 
next few years several hundred very light jets, along with 
unmanned aerial vehicles and vehicles participating in the 
emerging space tourism industry, will be operating in the 
National Airspace System. All of these developments will add to 
FAA's workload, require additional FAA staff and expertise and 
possibly put further strains on the system.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    And now we will hear from Mr. Todd Zinser, Acting Inspector 
General at the Office of Inspector General, U.S. Department of 
Transportation.
    Welcome, and you are recognized.

 STATEMENT OF TODD ZINSER, ACTING INSPECTOR GENERAL, OFFICE OF 
      INSPECTOR GENERAL, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Zinser. Thank you. Mr. Chairman, Mr. Costello, Mr. 
Oberstar, members of the subcommittee, we appreciate the 
opportunity to testify today and offer our observations on how 
to make a safe system even safer.
    Today, I would like to highlight three areas that 
characterize the current aviation safety landscape and current 
challenges, and request that my full statement be submitted for 
the record.
    Mr. Mica. Without objection, so ordered.
    Mr. Zinser. First, FAA is making progress in using risk-
based systems to carry out its safety oversight mission, but a 
lot of work remains. Facing a rapidly changing industry, FAA 
needs effective systems to help target inspector resources to 
areas of greatest risk and proactively spot problems before 
they can contribute to accidents.
    To its credit, FAA has developed risk-based systems for its 
oversight of air carriers, repair stations, and manufacturers, 
but these systems are at different levels of maturity and by no 
means at an end state. FAA's old inspection system focused more 
on compliance regardless of risk. For example, FAA inspectors 
would schedule and conduct hundreds of inspections even where 
no significant problems were found.
    FAA's risk-based systems rely on data analysis to identify 
where the greatest risks are in an air carrier's operations, 
for example, and inspectors can then use that analysis to 
target their inspections to those areas. In our view, FAA is 
moving in the right direction with risk-based systems, but 
substantial challenges remain.
    This approach requires a significant cultural change 
because inspectors may not be accustomed to working with data 
analysts and using data analysis to find safety problems. FAA's 
risk-based systems need to be flexible enough to adapt to 
significant changes in the industry, such as the greater use of 
outside repair stations by air carriers to perform maintenance 
and the greater use by aircraft manufacturers of outside 
suppliers, many in foreign countries, for the parts and 
components for their products.
    My second point is that there are several key trends and 
issues that need FAA's attention. My written statement 
addresses five issues. I would like to highlight two in 
particular. The first is non-certificated repair facilities.
    Last December, we identified a trend in air carriers' use 
of external maintenance facilities that FAA was unaware of: the 
use of repair facilities that have not been certificated by FAA 
to perform critical and scheduled aircraft maintenance. These 
facilities are not covered under FAA's routine oversight 
program because FAA believes this responsibility rests with the 
air carriers.
    Even though the maintenance performed at these facilities 
is approved by a licensed mechanic, the fact is that 
noncertificated facilities do not have the same regulatory 
requirements as FAA-certificated repair stations and yet 
perform the same type of work.
    Air carriers have used these facilities for years, but it 
was widely believed they only did minor work, for example, 
checking oil levels or changing tires. However, some of these 
facilities perform critical maintenance, including engine 
replacements.
    FAA agrees it needs to gather more information on the type 
of work these facilities actually perform. We think FAA needs 
to move more quickly to determine the range of actions that 
will be needed to improve oversight.
    Second is inspector staffing. Much attention has been 
focused on controller staffing, but FAA safety inspectors also 
face a surge in retirements. By 2010, half the current 
inspector workforce will be eligible to retire. Right now, FAA 
does not have a staffing model that would provide an effective 
means of determining inspector staffing needs or where they are 
needed. For example, FAA has one inspector assigned to Des 
Moines, Iowa, where his assigned carrier averages six flights 
per day, but does not have an inspector assigned to Chicago, 
Illinois, where the same air carrier averages 298 flights per 
day.
    It will be important for FAA to have a systematic way for 
allocating inspector resources in response to changes in the 
industry.
    My third point this afternoon is that FAA must continue to 
emphasize and address the risks of runway incursions and 
operational errors. To its credit, FAA has taken significant 
steps to reduce runway incursions. The total number of runway 
incursions has decreased from a high of 407 in 2001 to 327 in 
2005. However, since 2003, the number of runway incursions has 
flattened out and very serious runway incursions continue to 
occur. We are currently looking at three airports that have 
recently experienced higher numbers of runway incursions and 
will be reporting our findings later this year.
    While FAA has reduced the number of runway incursions, it 
has not had the same success with operational errors. This past 
year, there were 1,489 operational errors, which is the highest 
number of these errors reported in the last 6 years. Seventy-
three of those errors were serious incidents, compared to only 
40 reported in fiscal year 2004.
    Operational errors, especially the serious ones, are 
important safety metrics, but we urge caution in making year-
to-year comparisons because, at the vast majority of 
facilities, FAA relies primarily on self-reporting. As a 
result, we have reported that the prior-year numbers were 
subject to underreporting and, in some cases, systematically 
and deliberately ignored.
    FAA is taking actions to improve the reporting of 
operational errors. For instance, as a result of our 
recommendations, FAA now requires towers and TRACONs to conduct 
random audits of radar data to identify operational errors, and 
FAA is also developing an automated reporting system for 
TRACONs. The imperatives are to make sure that operational 
errors are accurately reported at all facilities, to establish 
a good baseline to measure progress, and to examine root 
causes.
    That concludes my summary, Mr. Chairman. I would be pleased 
to answer any questions you or other members of the committee 
may have.
    Mr. Mica. OK. We will start with some questions. First, to 
Mr. Sabatini.
    OK, let's get right to a couple of the key questions here. 
I keep hearing different numbers. I heard Mr. Poe talking about 
42 versus 29. We have different air traffic control people 
running around, giving different figures.
    What, before the committee, is your current onboard number 
of controllers; do you know? I mean, within--I see your target 
is 14,670 in fiscal year 2006. How many do we have onboard? It 
says as of September 3, there were 14,537?
    Mr. Sabatini. As of this time, Mr. Chairman, we have 
14,500; and we had in the pipeline----
    Mr. Mica. 14,500?
    Mr. Sabatini. Yes.
    Mr. Mica. And you are authorized and you are targeted for 
14,670; that is your target. So that is 100 different. You have 
those----
    Mr. Sabatini. 14,500 onboard now, and we are in the 
process----
    Mr. Mica. Well, the numbers I am hearing again--is this 
because folks are using old numbers or----
    Mr. Sabatini. Well, let me say, sir, that even with our 
organization, aviation safety, the numbers are fluid in the 
sense that while you are hiring people, you are also losing 
people.
    Mr. Mica. But we are within a 100 or 200?
    Mr. Sabatini. Absolutely. Absolutely sir.
    And I would tell you that the hiring is moving along at a 
very brisk pace. In fact, we recognized what has been 
highlighted by some folks in terms of the retirement. In fact, 
instead of hiring the 930 people that we had originally planned 
to hire, we are going to hire 1,100 people to accommodate for 
that change.
    Mr. Mica. OK. So that other question was, with the 
anticipated numbers of retirements, are you preparing--you are 
prepared for that?
    Mr. Sabatini. Oh, absolutely.
    Mr. Mica. And you have got those numbers covered?
    Mr. Sabatini. Yes.
    Mr. Mica. All right.
    Just for the record--I don't want to dwell on the Lexington 
situation, but for the record, I was told we have over 100 
airports with commercial flights, that have commercial flights 
landing in them, without a tower or without an air traffic 
controller. Is that correct?
    Mr. Sabatini. That is correct. The rules----
    Mr. Mica. Just for the record, could you just tell me--
again, do you know those numbers? Is it over a hundred?
    Mr. Sabatini. Well, I don't know the number precisely, Mr. 
Chairman.
    Mr. Mica. But it is over 100, there is no air traffic 
controller, no tower, and we have planes taking off and landing 
safely?
    Mr. Sabatini. We have air carriers operating into and out 
of airports where there may not be an air traffic controller, 
and I have--the actual figure is 145.
    Mr. Mica. One hundred forty-five. And I have repeated this 
to the press and to the public, I have not seen it published 
one time.
    Another question, I have heard a lot about the 9-hours-off 
requirement. That is for air traffic controllers between 
shifts?
    Mr. Sabatini. They are required to have 8 hours between 
their shifts.
    Mr. Mica. Eight hours?
    Mr. Sabatini. Eight hours.
    Mr. Mica. Eight hours. How does that compare with pilots?
    Mr. Sabatini. Well, it is essentially the same. By 
regulation, the difference is, we have a regulation which is 
part of the CFR system for pilots, and they are required to 
have a prescribed set of hours for rest. The difference is 
internally; it is an internal order that dictates the amount of 
time that----
    Mr. Mica. So if they made it 16 hours for pilots and air 
traffic controllers, I mean, could somebody just go out and 
pull an all-night drunk? I mean, is there a requirement they 
come to work ready to work?
    Mr. Sabatini. There is a requirement that they come fit for 
duty. However, as you well know, Mr. Chairman, there is no way 
that we can regulate what people do on their own personal time.
    Mr. Mica. Do you recommend a change in that policy for 
pilots and air traffic controllers?
    Mr. Sabatini. A change in what, sir?
    Mr. Mica. The hours.
    Mr. Sabatini. Well, I believe that the system has provided 
us with the safest air transportation system in the world. In 
fact, we are the envy of the world. So I would be very cautious 
about changing the formula that is already producing a very 
safe system.
    Mr. Mica. OK. We have had some areas where we have had some 
problems. Business and corporate jets are one, and--do you want 
to comment on that? Air ambulances, I think, was cited as 
another.
    Mr. Sabatini. Well, there is--as you know, Mr. Chairman, 
and as has been mentioned by the Inspector General and Mr. 
Dillingham from GAO, we have moved to a data-driven risk 
management approach in systems safety. And we target those 
areas that present as we go through our surveillance, using 
those systems that present areas of risk.
    We have identified an area of risk with emergency medical 
services, particularly in the helicopter community, and have 
addressed that in a very effective way. We engaged with the 
industry, starting back in 2004; and if you look at the data, 
you will see that having worked with the industry, having 
identified the number of actions that they voluntarily put in 
place, which is an expeditious way to deal with requirements 
that should be regulatory, but--we are going to follow up with 
the regulations, but the fact is, the industry and FAA work 
together, and today we have essentially cut in half the number 
of accidents that that particular category and group of users 
was experiencing.
    Mr. Mica. Well, final question: Mr. Dillingham, we went to 
a risk-based system, which was something that I supported. 
People said the sky was going to fall, planes were going to 
fall out of the air in changing that out.
    I think that the evidence that has been shown here today is 
dramatic, a dramatic safety record. And also using our 
resources to go after seen risk, should we have any change in 
that? And I know you have spoken to making certain that we have 
inspectors, et cetera, but any change in the risk-based 
approach, Mr. Dillingham?
    Mr. Dillingham. Chairman Mica, I don't think at this point 
we can talk about having change, but we can certainly talk 
about making sure that it is fully implemented; and part of 
that implementation should include the ability to have 
information that will allow FAA to evaluate these systems and 
determine if they are actually effective.
    Mr. Mica. OK.
    Mr. Zinser. Yes, I would agree with Dr. Dillingham that the 
key is to take the systems that the FAA has developed and make 
sure that they are implemented.
    I think there is more work to be done on suppliers, and 
there is more work to be done on developing the system for 
repair stations. The system for air carriers is pretty mature 
at this point. By the end of next year, FAA should have most 
air carriers under the system.
    Mr. Mica. Mm-hmm. I have serious questions about the 
incursion, runway incursion issue; also questions about this 
outsourcing and the level and how we approach that. I don't 
have time to get into all that, but I want to get back to that.
    And finally, Mr. Haueter, when do you think you will be 
done, any idea, on that Lexington report?
    Mr. Haueter. We are hoping to have it done within a year of 
the accident, and we are seeing if we can make it shorter than 
that.
    Mr. Mica. Mr. Costello, you are on until we vote. 
Incidentally, there are--how many votes are pending, three or 
four votes?
    Three votes. So what we will do is try to let Mr. Costello 
consume some time. Then we will recess until 4:00--I think it 
is going to take until then--and then come back and grill, then 
grill what is left over.
    Mr. Costello. So it is clear for members, we are coming 
back?
    Mr. Mica. Yeah, we are, 4:00, and then we will take them, 
bam, bam, bam.
    Mr. Costello. Mr. Chairman, thank you.
    [Resuming]
    Mr. Costello. Mr. Chairman, thank you. I hope to get some 
answers as well. In my opening statement, I made it very clear 
that several concerns that I have that both the inspector 
general and the GAO addressed and brought up as their concerns 
about the outsourcing of maintenance and Mr. Sabatini, first 
question, you, as I indicated in my opening remarks, there is 
no question that the U.S. air carriers are outsourcing more of 
their maintenance work than they have in the past. I think the 
statistic was from 1996 about 37 percent of their expenses for 
maintenance was outsourced. It is 62 percent and climbing as we 
speak, and I think we all know why. It is because of the labor 
costs.
    The statistics and numbers I have, and I am not going to 
quibble over a few, but I understand that your inspectors were 
foreign repair stations that my understanding is that you have 
68 inspectors that have the responsibility of inspecting 688 
facilities. I told you of a conversation I had with one of your 
people out of the Singapore office where they have six 
inspectors to do 99 facilities.
    First question, and we have limited time, although we are 
coming back. My first question is this: In your opinion, do you 
have enough inspectors to adequately provide oversight to 
facilities, both here in the United States, domestic facilities 
and in foreign countries?
    Mr. Sabatini. Mr. Costello, let me first say that the 
former Inspector General Ken Mead, as well as the acting 
Inspector General today, has stated emphatically that it is not 
the quality of maintenance that is of a concern, but rather the 
ability to provide adequate oversight. That is a significant 
statement because if you recall, there was a period of time 
where there was concern about the quality of maintenance, 
simply because it was being outsourced. Now that we can put 
that aside, we can address the hard facts of the oversight and 
how best to do that.
    I would also say that we will never compromise safety ever. 
So what we are doing with the resources that we have is 
identify priorities. And our number one priority is the 
continuing oversight of those certificated entities that are 
already issued authority to perform work.
    Mr. Costello. I understand that.
    Mr. Sabatini. Yes, sir.
    Mr. Costello. But answer my question, if you will. Do you 
have enough inspectors to adequately inspect domestic 
maintenance facilities, repair stations and foreign stations as 
well?
    Mr. Sabatini. Well, I have, in the foreign arena, several 
combinations of oversight.
    Mr. Costello. Your people tell me that you don't, so I want 
to know if you believe that you do.
    Mr. Sabatini. Well, when you have to draw comparison, Mr. 
Costello, in with the foreign repair facilities, those 
inspectors only have responsibility for the oversight of repair 
stations, period. That is all they do. And on average, they 
have about 10 certificates that they need to have that they 
have responsibility to conduct oversight. Here domestically, 
our inspectors have more than just 10 certificates. They on 
average have about 14 to 20 certificates.
    So the attention is divided here. But I will tell you that 
the number is adequate to assure the level of safety where 
there is a consequence when you prioritize the way we do. There 
is a consequence in new applicants, and for the past several 
years, we have informed the industry that we could not process 
new applications because once a new applicant is issued a 
certificate, it becomes an ongoing responsibility for 
oversight.
    Mr. Costello. Can you state emphatically that with the 
foreign repair stations, that every foreign repair station has 
physically one of our FAA inspectors visit their facilities at 
least one time during the year.
    Mr. Sabatini. There are locations where because we have 
maintenance implementation agreements with----
    Mr. Costello. So there are facilities where we go a whole 
year without physically sending an inspector to that facility. 
That is what I have been told by your people.
    Mr. Sabatini. That is true, sir.
    Mr. Costello. Is that acceptable?
    Mr. Sabatini. Yes, it is because we have, through the 
bilateral aviation's safety agreement with these countries, 
with whom we have determined are competent authorities, and we 
have examined those countries up close and personal, so to 
speak, and have determined that they have the wherewithal to 
execute, on our behalf, the oversight that we have ordinarily 
had to exercise.
    Mr. Costello. Regarding the report issued in this past 
December by the IG, air carriers use of non-certificated repair 
facilities, they were criticized, the FAA, for oversight and 
they said that the work performed at non-certificated repair 
facilities, they criticize the agency and said that you are not 
providing adequate oversight for the non-certificated 
facilities. I want to know your response to that, and number 
two, what have you done about that?
    Mr. Sabatini. Well, I will tell you that I always welcome 
the constructive criticism we receive from my colleagues.
    Mr. Costello. But you disagree or agree?
    Mr. Sabatini. Well, we can certainly improve on the number 
of surveillance activities. But I want to caution you that this 
is not a numbers game. It is identifying risk and using system 
safety principles that will take us to those places where we 
will have to devote our resources. And having said that, there 
is no data to suggest that there is an untoward occurrence 
about to take place because of uncertificated entities.
    Mr. Costello. The last before, I think, we have to run 
vote, the IG has said that 28 percent of the current inspector 
workforce is eligible to retire this year, and by 2010, half of 
the inspector work force is eligible for retirement. And when 
and how is the agency going about hiring inspectors?
    Mr. Sabatini. Well, I will tell you this year consider, 
sir, considering the new growth and the back filling, our 
organization has hired 4,040 inspectors. But I would caution 
you when people banty about the term eligible for retirement, 
our organization is an organization that hires very experienced 
people and they come generally speaking from an industry where 
they have already completed one career and starting a new 
career with us. So you might say that from the day they start 
with us, they are eligible for retirement that certainly was 
the case for me. When I joined the FAA, I was eligible for 
retirement.
    Mr. Costello. So let me ask the question. When the IG says 
28 percent of eligible for retirement, now you are saying that 
they are eligible for retirement under a different standard 
that you are looking at versus the IG. Explain that.
    Mr. Sabatini. Well, they may be eligible for retirement but 
you will find that they have short tenure with the FAA and are 
planning to stay. These people that we have hired, and I 
personally talked to these folks. They are here, they have 
some--many have military and previous government service and 
they come and they have the age and the period of time 
necessary for retirement and then can, if they choose to with 
FERS, which allows you to retire with as little as 5 years, but 
I can tell you practically speaking Mr. Costello they do not 
retire. They stay for a long period of time.
    Mr. Costello. We will follow up. But I do want to point out 
for the record, and you can correct me if I am wrong when we 
come back, that the FAA has seen more retirements in the area 
of air traffic controllers than they anticipated.
    Mr. Sabatini. Well, I was addressing the safety 
organization.
    Mr. Costello. What I was saying if your agency was wrong in 
anticipating how many traffic controllers would retire, how 
would we--would be reasonable to assume that when we say 28 
percent are eligible for retirement, but you don't anticipate 
that--that the agency may be wrong again.
    Mr. Sabatini. I don't think the agency is wrong. We--I 
would agree that those are the numbers that represent the 
number of people eligible for retirement, but they may not 
necessarily retire, and that is the only point I wish to make.
    Mr. Mica. We will stand in recess until 4 o'clock and then 
we will continue. Thank you.
    [recess.]
    Mr. Mica. The subcommittee will come back to order. The 
witnesses will please take their places and see if Mr. Costello 
had any concluding questions. He got cut a little short. We 
don't want to deprive him any opportunity to question the 
witnesses.
    Mr. Costello. Thank you. Dr. Dillingham, let me ask you the 
same question. The same questions, number one about staffing 
issues, both the GAO and the IG have either criticized or 
commented or questioned, number one, do we have enough 
inspectors for the adequate oversight both domestically and at 
foreign repair stations. So I would ask you, one, do you 
believe that the FAA at their current staffing level if they 
have adequate staff to perform adequate oversight?
    Mr. Dillingham. Mr. Costello, I think that we haven't done 
any work on the foreign repair stations, but with regard to 
inspectors staffing, we can't tell you whether they have 
enough, and I don't think FAA can tell you whether they have 
enough either, because there is no staffing standard for that 
position. I think the National Academy of Sciences has been 
asked to do some work to sort of help FAA along in developing a 
staffing standard.
    Mr. Costello. I would ask the same question of Mr. Zinser.
    Mr. Zinser. I would say two things. I would agree that a 
model is needed and the work that the National Academy of 
Sciences was commissioned to do should help FAA get to such a 
model and establish some staffing standards, but I would also 
say that the staffing levels underscore the importance of a 
risk-based approach here because you are never going to have 
enough inspectors to be at the repair stations 100 percent of 
the time and to see everything that is going on.
    You really have to target risk areas. And so I think 
between the staffing model that they are working on and this 
risk-based approach, FAA will have adequate staffing levels for 
inspectors.
    Mr. Costello. Before we go on to other members, let me give 
both Dr. Dillingham and you, Mr. Zinser, the opportunity to 
comment on any of the other either GAO or IG observations 
concerning staffing foreign repair stations or anything in 
general that you would like to address at this hearing.
    Dr. Dillingham.
    Mr. Dillingham. I would just like to reiterate that we, 
too, agree that we have the safest aviation system in the 
world. However, again, I want to also agree with Mr. DeFazio 
when he said that some of the things that we are currently 
seeing, we need to take them as early warnings of a system in 
distress in that we need to address those before they become 
critical issues in our system.
    Mr. Costello. Mr. Zinser.
    Mr. Zinser. I would comment on a couple of things, Mr. 
Costello. One is on the use of repair stations by air carriers, 
the increasing use of outsourced maintenance. And Mr. Sabatini 
is correct. We are not saying thatthat, in and of itself, 
outsourcing poses a safety issue. What we are saying is that 
you have to provide oversight where the maintenance is 
performed, and the maintenance is moving to outside repair 
stations.
    And our recommendations on repair stations to FAA included 
things as simple as finding out where air carriers are sending 
their planes for repairs and what repairs are being done. Let 
us get the data and then see what the implications of that are.
    So that is a key point for us.
    My second issue would be non-certificated repair 
facilities. If there are 5,000 certificated repair stations and 
FAA knows where they are and who they are, they cannot say the 
same thing about non-certificated repair facilities. I think it 
took everybody by surprise when we went out and found the types 
of maintenance being performed at these non-certificated 
facilities.
    The common wisdom or the common thinking was that these 
non-certificated facilities were being used to do emergency 
repairs or small repairs and, lo and behold, we find that the 
airlines are using these non-certificated facilities for some 
major repairs. And our only point there is to find out who they 
are and what repairs or maintenance they are actually 
performing because when we went out and looked at 19 carriers, 
and their maintenance vendor lists, we found the use of non-
certificated repair stations ranges from 1 percent of the 
maintenance vendors these carriers were using up to--to up to 
39 percent. We think that this is an area that FAA has to get 
on top of: who they are using and what they are using them for.
    Mr. Costello. Final question, Mr. Chairman. Mr. Haueter, I 
want to ask you about the May 16th, 2006 letter to the FAA 
regarding the runway incursion at Chicago O'Hare Airport, and 
the NTSB referenced the issue of air traffic controller 
fatigue. In your view, is this controller fatigue an issue that 
needs to be examined more closely?
    Mr. Haueter. In the event in Chicago, the particular air 
controller had a sleep disorder and he was fatigued. It was a 
kind of a different situation than what we normally see. 
Clearly, in our investigations, if we find fatigue, we will 
highlight it, make recommendations and so we look into those 
areas.
    Mr. Costello. Very good. Mr. Chairman, thank you.
    Mr. Mica. Thank you, and I guess we will hear now from Mr. 
Hayes. Are you ready?
    Mr. Hayes. Yes, sir, Mr. Chairman. Thank you.
    Mr. Zinser, you posed an interesting issue. Mr. Sabatini, 
could you comment on his observation for the sake of the 
audience and the press, distinguish between certificated and 
non-certificated repair stations?
    Mr. Sabatini. Yes, sir. Actually for precision and 
accuracy, there is no such thing as an uncertificated repair 
station. There are facilities that are authorized to be used by 
an entity such as an air carrier, which is certificated and a 
repair station can outsource.
    So both of those entities can outsource to those facilities 
that have a capability that those entities, certificated 
entities do not have. So for example, if an air carrier wishes 
to have something down, for which they themselves do not wish 
to take on or wish to farm out, they can go to an organization 
and let us use, for example, an engine change at a location 
where they do not have their own facility there.
    They can't contract with an organization that has repair 
men or A&P certificated mechanics and they can arrange under 
certain conditions under the air carriers quality control 
program, which means that the air carrier continues to be 
responsible for its total system. It has already been said. We 
will never have enough inspectors to be everywhere. But quality 
management systems, safety management systems, deal with system 
level design and attributes that assure that no matter where 
the work is being done, whether it is being done on the 
property by the air carriers, or it is being done by someone 
that the air carrier contracted with.
    It is then the air carriers' responsibility to ensure that 
that entity has the wherewithal, the facilities and the 
knowledge and the appropriate tools to do what it is going to 
do on behalf of that carrier within that very narrow piece that 
that carrier is asking it to do.
    So we may not be present at every one of those entities 
that do work for air carriers, but we certainly can improve on 
that, but it is going to be driven by risk, data that 
identifies, hazard analysis. Identify the risks and to date, 
the data does not suggest a significant change in what we are 
doing today.
    But we are always about continuous improvements. System 
safety is about continuous improvement, and I welcome the 
constructive criticism that we receive from our colleagues 
here. But you have got to keep it in perspective.
    Mr. Hayes. To follow-up on the question. The public is 
present here, as is the press. Is it a correct statement to say 
that when aircraft, airline or any other type maintenance is 
done, and it is done correctly, then it will be done by 
certificated mechanics, an A&P, which stands for Air Frame and 
Power Plant, or A&I, aircraft inspection? Not by boat mechanic 
or truck mechanic. Is that correct?
    Mr. Sabatini. There are circumstances under which certain 
work must be done under the supervision of a person who is 
certified by the FAA. So there are circumstances when work that 
is not critical can be done by someone who is not necessarily 
certificated by the FAA, but is under the supervision of the 
carrier's system, but they would not have the responsibility to 
return, for example, an aircraft to service. That can only be 
done by a certificated person. So it is low-level work that 
doesn't--that does not require the knowledge and the skills and 
the abilities that we expect from a certificated mechanic.
    Mr. Hayes. And when that is done, let us say it is a person 
who is learning, it still has to be inspected and signed off by 
the station inspectors. Again, I think it is important that 
people know that various and sundry things in place, again, to 
address the safety issues. Point for clarification, not to take 
sides in this very, very important discussion.
    Mr. Haueter, has the NTSB ever investigated an aviation 
accident where the air traffic controller staffing level or air 
traffic controller fatigue was determined to be a contributing 
cause of the accident? I think I just heard Mr. Costello's 
question answered or somebody said there was a sleep disorder 
issue that there was.
    Mr. Haueter. There was a runway incursion event in Chicago 
where the controller did have sleep disorder and fatigue was 
probably part of that event. That wasn't an incident. It was an 
incursion. Looking at our database, we don't have any accident 
with a probable cause mentioning controller fatigue.
    Mr. Hayes. Now, again for clarification, talk about what an 
incursion could be. It could be your nose wheel crossing the 
whole shore line or it could be as serious as entering an 
active runway when you are not supposed to be there. So 
distinguish that a little bit.
    Mr. Haueter. That is correct. An incursion can be two 
aircraft on the same runway at the same time coming in close 
proximity to each other. It can be an aircraft has gone into 
the runway of an aircraft is ready to take off and maybe its 
only the nose that has gone over the runway. That can count as 
an incursion. There are different levels of these, obviously.
    Mr. Hayes. One more issue on safety again. I think it was 
Mr. Porter. I am not sure who talked about the situation at 
Salt Lake City where there was a power interruption. Obviously, 
bad judgment mistake was made. But again, if one of you all 
would point out, not me, that in the event of a loss of 
communication in the eyes of our system, both the controllers, 
and that is a tough situation for them, but there are 
provisions in place where every one of those pilots has a 
clearance.
    It may be the landing, but his instructions are to proceed 
to his last point of clearance and then commence the published 
approach. So again, I don't want folks to come away thinking 
the power goes off, it is not the situation you want. You do 
everything to prevent it, but chaos is not the automatic result 
because the controllers and their professionalism has set their 
aircrafts and those pilots up to follow published procedures 
and the properly trained pilot knows what to do. So if you 
could clarify that just a little bit.
    Mr. Sabatini. Yes, sir, Mr. Hayes. I would say that to be, 
again, where there is no recorded accident or incident because 
of communication failure. And the analogy I would share with 
you is one of a football game. There is a playbook. We all have 
the same playbook. I am an active pilot. I know my 
responsibilities in the event of loss of communications, even 
on--especially under instrument conditions. The world class, 
hard working professionals, the air traffic controllers have 
the same playbook.
    In the event of a loss of communication, I know what they 
are going to expect me to do, and they know what I am expected 
to do. And we can continue to a safe landing under IFR 
conditions, so it is absolutely not chaos whatsoever.
    Mr. Hayes. I think it is a good point and just, again, to 
endorse the system and I will say, Mr. Chairman, Mr. Pascrell 
has a little different accent than I. I have trouble 
understanding him sometimes. And the controllers in the 
northeast, they talk a lot like him. I am not sure what 
language it is. But they do a good job. I was flying up to the 
northeast and the weather was bad, and they had lots of traffic 
and a lot of things going on, but those guys handled the 
situation extremely well professionally, they used my knowledge 
of where I was and what I needed to do and what they had to do 
and they get it done.
    So again, our hats off not to a perfect system, but to a 
group of professional controllers and professional FAA 
personnel who are working together.
    And the last thing, we put a lot of blame in the air by a 
lot of things. But it is us, Congress, who funds. If you want 
to double the number of this, that or the other, then we can do 
that. But we have a certain responsibility there. So that 
hadn't been mentioned, or at least I didn't hear it.
    Mr. Mica. I thank the gentleman.
    Mr. DeFazio has been waiting patiently.
    Mr. DeFazio. Mr. Sabatini, to continue on the questioning 
about non-certificated repair. I was a bit, you know, I just 
harken back to Value Jet. Now remind me whether that was non-
certificated or certificated incompetence of mechanics or 
unlicensed incompetent mechanics who stowed the loaded air, the 
oxygen containers that caused a lot of people to die. Now that 
is out, you know, like sub-contracting. I mean, tell me how--
what was that setup? Was that non-certificated under the 
supervision of the airline? A lot of people died.
    Mr. Sabatini. I don't recall the particulars, but I can 
certainly provide you with the fix on that.
    Mr. DeFazio. But that is the problem we have today. We have 
airlines that are under tremendous stress trying to make a buck 
coming out of bankruptcy, in bankruptcy, whatever, and you know 
they are chasing the cheapest labor around the world around the 
country. I am just not quite so sanguine about the fact that 
gee, no one at the airline is going to sign off on this that 
was done three levels away from the airline and they don't know 
how incompetent that person really was and they assume the 
person two levels away from the airline actually checked on 
what the person did, and the person one level from the airline 
assumes that the person two levels away did, and the person at 
the airline assumes the person one level, two levels and three 
levels away all knew what they were doing, and they did it the 
way they said they did it, and the piece of paper that the 
first person signed ends up getting adopted by the airline, and 
then you have a tragedy.
    So I am just not quite so sanguine about all of this 
outsourcing that is going on here, and the level of supervision 
or oversight that we are getting. I just--I am not, and I am 
not sure that the computers provide us with that level of 
oversight that we lack.
    And I would go to another, the designee program. I mean, as 
I recall testimony here from your folks, they say maybe once 
every 9 or 10 years they can get around to designees, because 
their scope is you talked about a scope of 1 in 10 and foreign 
1 in 4 to 20 national. What is the scope for people who 
supervise designees? I think it was--I remember it was one to 
several hundred was what we heard testimony, it was a huge 
number.
    Mr. Sabatini. Well, I can get you the specific number in 
terms of ratio inspectors to designees. But I will certainly 
provide you with that information.
    Mr. DeFazio. Again, I am not totally saying what the number 
of people that you have and the level of oversight we are 
providing in these areas should be. And if any one else has a 
comment on either designees or level of oversight, I would be 
happy to hear it. Dr. Dillingham.
    Mr. Dillingham. Congressman DeFazio, we did a report that 
looked at the oversight of designees and the designee program 
and we concluded that much the same thing that you just 
discussed. But in fairness to FAA, in response to some of the 
recommendations that we made, that oversight needed to be 
tighten up. It needed to be more systematic and it needed to be 
closer. They are, in fact, developing systems that will 
increase their ability to oversee what designees do.
    Mr. DeFazio. OK. Well, I will look forward to a bit of 
follow-up on that.
    Mr. Sabatini, I would congratulate the FAA on standing firm 
on the A-380 and the actual physical evacuation. I have always 
been dubious about the drills as conducted by computer 
simulation as opposed to the physical approach. The NTSB is 
against that. Are we going to stick with a new type, or a 
reconfiguration, stick with the actual evacuation tests?
    Mr. Sabatini. Well, the regulation allows a combination of 
options for the 380. It was new and novel, and certainly, we 
don't have any airplanes that have two full decks and for those 
reasons and that kind of logic, we decided the best course of 
action in the interest of safety was to have an actual full 
evacuation.
    The rules do permit under certain circumstances airplanes 
that have a history of preceding models where we have 
demonstrated initially with a full evacuation. We could use 
computer modeling in a variant of that particular model or 
similarly situated aircraft.
    Mr. DeFazio. All right. My final questions go to the issue 
of, and again, you are the only person from the FAA, so you get 
all the questions.
    The air traffic controllers. I am just, you know, getting 
bombarded with, and I assume other members of the committee 
are, too, a number of concerns from air traffic controllers, 
real folks who work in my district and elsewhere around the 
country. And what they are saying is that some of the new work 
rules are very arbitrary, and potentially jeopardize safety, 
particularly those that relate to you know people who are not 
feeling up to snuff to work or are ill, and what would be 
required to be relieved, and whether there are adequate people 
to relieve them. Other sorts of petty harassment. People who 
are retiring early. We have a crisis in terms of replacing our 
qualified controllers.
    And I guess I would just ask what the FAA intends to do to 
try and rebuild a relationship and some morale with the vital 
link in our air traffic control system.
    Mr. Sabatini. Well, sir, I would tell you, Mr. DeFazio, 
that I don't think that the retirement situation is at crisis 
situation to date. The numbers that have been projected are not 
materializing. There have been 463 retirements in 2005. 541 
through September 3rd of 2006, and we fully expect to go beyond 
the numbers that we had originally thought which was 930, and 
we will have 1,100 people, 1,100 controllers on staff by the 
end of September.
    So we will certainly have addressed the concern and the 
concern that was basically said has basically not materialized.
    Mr. DeFazio. Since the arbitrary imposition of a unilateral 
agreement, you haven't seen any acceleration in retirements?
    Mr. Sabatini. Well, let me say that there was approximately 
15 to 18 months of negotiations between----
    Mr. DeFazio. I am familiar with the history. We disagree 
with the result or history in terms of how long there were 
material negotiations ongoing. But the point is have you seen 
any increase in retirement since the arbitrary imposition of 
this and the new work rules?
    Mr. Sabatini. Well, I would say these are the numbers and I 
can get you----
    Mr. DeFazio. I know, but they are not since the unilateral 
imposition of the agreement. So I guess I would like to see 
numbers since that date, if you could, and how they compared to 
other months.
    Mr. Sabatini. Well, let me say that we can certainly 
provide you with that information. The numbers that I can tell 
you that are accurate as of this moment, and that is the 463 in 
2005 and you take it from there to 541. That is more than last 
year. So if you want to consider that an acceleration.
    Mr. DeFazio. Again, to me, the question is, you know, I 
can't be getting this many e-mails and contacts to my staff and 
other members from people who are talking about working 
conditions, arbitrary things being done by management. I have 
one photo here provided to me with a guide essentially pulling 
down his jeans or pulling up his shirt to show the supervisor 
that those really aren't jeans that he is wearing.
    Now I don't care what an air traffic controller wears. They 
can be sitting there in shorts and Tevas, if they are 
comfortable and it is hot. That is fine with me. I don't know 
what bureaucrat has decided to go to this level of harassment. 
Other things are being imposed and I don't know why that is 
being done, but it is. I am just concerned about morale, and I 
believe that there is probably going to be, or has been an 
acceleration in retirements, which further jeopardize the 
system. And I look forward to seeing month-by-month statistics.
    Thank you, Mr. Chairman.
    Mr. Mica. Ms. Kelly.
    Mrs. Kelly. Thank you, Mr. Chairman.
    I am concerned about the new work rules that have been 
imposed on our Nation's controllers since September 3rd, 3 
months after having this new contract forced on them. There is 
an article in today's New York Times, with permission and 
consents, Mr. Chairman, I would like to enter into the record.
    Mr. Mica. Without objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 30668.001
    
    [GRAPHIC] [TIFF OMITTED] 30668.002
    
    [GRAPHIC] [TIFF OMITTED] 30668.003
    
    [GRAPHIC] [TIFF OMITTED] 30668.004
    
    [GRAPHIC] [TIFF OMITTED] 30668.005
    
    Mrs. Kelly. If the picture in that looks familiar, it is 
because it is from the control tower in Stewart Airport in my 
district, which you visited last month. The article contains 
details on the fast plans to cut its work force by 10 percent. 
As many of our control facilities are already understaffed, 
this goal concerns me and my constituents a great deal. I 
recently heard a very troubling story regarding a controller at 
the New York TRACON. The controller was on medical leave and 
was doing other duties that were assigned. He was told by his 
supervisor to stay home, but to call every morning to see if 
the facility needed him. The controller called every morning at 
6:00 a.m.
    On a day when his supervisor asked him to come in, he 
arrived at 7:00 a.m., one hour after his call-in time. However, 
because and you heard that the--he was called at 6:00 a.m., but 
because he wasn't there at 6:00 a.m., his normal start time, no 
flight progress strips were being distributed to radar 
position, and when the radar positions were combined, an 
aircraft was overlooked and subsequently entered New York air 
space without a prior coordination.
    This story is unfortunately indicative of not only the 
effect on safety that the new staffing rules have, could 
potentially have further. But it also shows how lowering staff 
levels may not necessarily be in the interest of best safety. 
New imposed work rules, the FAA--at the FAA, mean all of the 
memorandums of understanding that the controllers had with the 
FAA before this appeared, to have gone right out the door.
    There is no one for the controllers to even talk to to 
express their concerns.
    What I really want to do is talk to you, Mr. Dillingham. If 
this story is indicative of how many--how managers are using 
their new authority, and if lowering staff levels is going to 
mean less safety for our flying public, how do I answer that to 
my constituents and how do you answer that to me?
    Mr. Dillingham. That is a very tough question. I think 
that, you know, as was mentioned earlier in the hearing, that 
the negotiations were long and stiff, and there were lots of 
bad feelings on both sides between labor and management.
    Mrs. Kelly. This isn't about bad feelings. It is about an 
instance where there was a problem.
    Mr. Dillingham. Right. I understand that, and what I am 
getting to is I think that it is going to take some time for 
labor and management to be able to work through these issues 
that were the result of the contract. It is early on, and there 
is still lots of unanswered questions, lots--my understanding 
is that FAA and the controllers have not fully vetted all of 
how the work rules are going to be put in place. And usually, 
when there is a situation that is so widespread as all of the 
facilities that FAA has, they will be implemented differently 
at different places, until there is some understanding about 
exactly how the rules should be implemented.
    Mrs. Kelly. Sir, I am flying in and out of--using New York 
TRACON twice a week. A lot of my constituents are flying in and 
out more than twice a week out of the New York air space. If 
you need someone to be there as a controller, you don't call 
them at 7:00 o'clock in the morning because they are supposed 
to be there at 6:00 o'clock in the morning. I am very concerned 
that there is oversight over this kind of thing. We need our 
air traffic controllers and we need them there for our safety. 
This has been acknowledged by the whole panel. But what I am 
concerned about is that there is some kind of an effective 
oversight going into place that is going to happen soon, not 
while we are working on it, because that is not satisfactory if 
there is a problem.
    And so I am challenging you to come back to me with some 
kind of a plan that is going to focus on what kind of oversight 
we have to make this thing work. Since the contract was 
imposed, I think it is up to the FAA to work--to work with the 
air traffic controllers to make sure we all feel comfortable 
when we are flying in and out of New York TRACON space.
    Mr. Dillingham. I agree with you, and maybe Mr. Sabatini 
can probably add to whatever processes they have in place to 
make this contract work and the work rules work better.
    Mrs. Kelly. Mr. Sabatini, do you want to address that?
    Mr. Sabatini. Yes, ma'am. I will. First, I would like to 
say that we don't believe this was an arbitrarily imposed 
contract. There were a fair period of time for the contract to 
be negotiated, and I will say that over the course of about 5 
years, it will save the taxpayers $1.9 billion.
    Mrs. Kelly. Excuse me, sir. That is not my question. My 
question is--goes right to what I am looking for, I have 42 
seconds for you to answer my question. So I would really 
appreciate it if you would talk to me about oversight and what 
you are going to do to try to make this thing work.
    Mr. Sabatini. St. Louis is a perfect example where there 
was a negotiated agreement that said there had to be an 
authorized number of controllers at that facility. It had 
nothing to do with capacity or anything else. American Airlines 
pulled out of St. Louis and it would be foolhardy to have what 
would be considered, which are not in place any more, 
authorized positions. So what we now have in place is the 
flexibility for the FAA to do its job and put controllers where 
they are most needed to address safety in the most effective 
and efficient way.
    Mrs. Kelly. Well, would you say that because this man was 
called at 7 o'clock because he wasn't there at 6:00 a.m. Which 
would be his normal start time and no flight progress strips 
were being distributed to the radar positions, would you say 
that that was an effective use?
    Mr. Sabatini. I would--I will tell you that the absence of 
a flight progress strip is not an unsafe condition. There is 
information that is available on the aircraft from the 
transponder and the data block. That information is available. 
The controllers have the information they need to do the work 
they need to do.
    Mrs. Kelly. My husband was an air traffic controller in the 
Navy. Never worked as a civilian, and I have been in the TRACON 
and I have talked to my husband. I watched him control 
airplanes from his--from his destroyer. And so I have been at 
this a long time. My husband and I have been married a long 
time. We talked about air safety. What I am concerned about 
here is that there was an aircraft that was overlooked and it 
got into New York air space without a prior coordination. That 
is worrisome, sir. That is a very congested air space. I need 
to know, and everyone in the flying public needs to know that 
this kind of thing isn't going to happen. And we need 
oversight.
    Do you have any kind of thing to talk to me about or can 
you come back at me and talk to me about what kind of 
oversights you are going to put into place so this kind of 
thing doesn't happen?
    Mr. Sabatini. Well, let me clarify what you mean by 
oversight. You mean oversight by the IG or the GAO or oversight 
by the FAA?
    Mrs. Kelly. You are running this show. The FAA is running 
this show. You shouldn't have to have us look at this 
oversight. If there is something like this that could result in 
an aircraft being overlooked that enters into a busy air space, 
I mean, some place like the Chicago air space. There ought to 
be some mechanism in place that the FAA--so that this kind of 
thing doesn't happen.
    Mr. Sabatini. Well, there is a mechanism in place and----
    Mrs. Kelly. It didn't work here.
    Mr. Sabatini. Well, let me say that as I mentioned earlier 
in the day, humans make mistakes and what we are doing is 
building systems to catch errors like that. And that is what we 
are doing.
    So I have the responsibility now for the oversight of the 
air traffic organization. I can tell you we are aggressively 
staffing up that organization and it will be fully staffed by 
the end of 2008, and we have programs in place to address those 
situations. But I will tell you, I am an active pilot. I fly 
this system. I can tell you that the system is world class and 
the effectiveness of our system is demonstrated every single 
day and when you look at the statistics that exist today, it is 
the envy of the world in terms of the incredible safe system 
that we have so there are mechanisms that are in place that 
address this.
    Mrs. Kelly. Well, Mr. Sabatini, in my lifetime, which has 
been reasonably long, I have never found anything perfect yet. 
So I would hope that you would come back at us with--and you 
can just contact my office when you have something in place 
that will assure me that I can assure my constituents in the 
greater New York area that we are not going to have this kind 
of incursion happen.
    Mr. Sabatini. I agree with you, and I certainly didn't say 
that the system is perfect. In fact, I will tell you that we 
have imposed upon ourselves a rigorous methodology which is a 
world class third party oversight of our organization, aviation 
safety and that is the ISO 9001, and it is founded on the basis 
of continuous improvement. That alone should say and tell 
everyone that we recognize that we too will hold ourselves to 
the highest standards and are subject to the rigor and 
discipline of such a system and such a methodology that will 
demand continuous improvement. And I will be happy to share 
more information with you about what we are doing for the 
oversight of the ATO as well as what we have imposed upon 
ourselves.
    Mrs. Kelly. Thank you, sir. I am not impugning the FAA, 
because I do think you do a pretty good job. But there are 
glitches, there are problems and those definitely need to be 
addressed and this is an example of one.
    I thank you for indulging me with a little extra time.
    Mr. Mica. Mr. Chandler.
    Mr. Chandler. Mr. Chairman, thank you. Mr. Sabatini, I am 
afraid, not surprisingly, I am going to bring you back to the 
Lexington tragedy. And I would like to ask you, I am a little 
bit concerned about this whole notion that the tower was not 
staffed appropriately. There was one controller there when 
there should have been two, as I understand it. And you all 
issued a verbal directive that there should have been two 
rather than one. One thing I would like to know is does the FAA 
generally issue verbal directives of this sort? Is that your 
policy?
    Mr. Sabatini. The FAA manages its business through orders 
and other written guidance. Where there is information that 
needs to be identified to be further explained, it can be done 
in the moment verbally, and I believe that was what was done in 
that instance.
    But I would also go on to say that even if there had been 
two persons in that tower, two persons would not have been in 
the cab. One would have been down in a room without windows 
looking at radar, radar which does not look at what is on the 
ground. It was for airborne purposes.
    Mr. Chandler. I understand that, Mr. Sabatini, and I am not 
suggesting that this problem caused that accident. We are going 
to wait for the NTSB to--I want to ask Mr. Haueter some 
questions, but I know what the answer is: The report isn't 
done, so we are going to have to wait and we will wait until 
that gets done, and maybe we will have a shot at you. But I am 
sure you are going to have do a good job.
    But Mr. Sabatini, this directive was put in place for a 
reason. I assume that you put the directive in place because 
you thought that it was good policy to have two controllers on 
that site for safety purposes. And the directive clearly wasn't 
followed, and what also concerns me is that you didn't know 
that the directive wasn't being followed until after the crash. 
So here we get into this same issue about oversight. Do you 
know whether your directives are being followed and shouldn't 
directives like this, aren't they important enough to be put in 
writing?
    Mr. Sabatini. Well, it is in writing. In fact, the order 
7110----
    Mr. Chandler. Was it at that time? I mean, it is in writing 
now, I guess.
    Mr. Sabatini. Well, the order has been a standing order and 
provides guidance on the staffing of those facilities.
    Mr. Chandler. Then why wasn't that facility staffed?
    Mr. Sabatini. Because it provides latitudes to the 
management to make determinations based on the needs at the 
time.
    Mr. Chandler. So it wasn't really a directive. It was up to 
whoever is in charge there. I mean, it is either a directive or 
not a directive.
    Mr. Sabatini. I want to make clear, sir, there is an order 
that describes generally how you manage an air traffic control 
tower. That order--that order is what stands in terms of the 
guidance for managers to use. There was a follow-up 
conversation based on an event in Raleigh-Durham and as a 
result of what that event was in Raleigh-Durham, there was a 
verbal conversation.
    Mr. Chandler. With somebody--somebody in Lexington?
    Mr. Sabatini. Explaining what was expected in terms of----
    Mr. Chandler. Telling them to have the two people?
    Mr. Sabatini. That the explanation was that there would be 
a person on radar and a person on--of course, obviously in the 
tower.
    Mr. Chandler. And they still didn't do it.
    Mr. Sabatini. But it still left room for interpretation.
    Mr. Chandler. I mean, if you have a written directive and 
then you find out that that wasn't being followed, you know, 
that the Raleigh-Durham matter took place. And then you 
followed that up by saying that you need to follow this 
directive and they still don't follow it, at what point do you 
need to interpret that? I mean, that seems pretty clear to me. 
Were they directed to do it or not?
    Mr. Sabatini. Well, I can get back to you with more 
specifics. As I want to say that I am responsible for this 
oversight of this safety, the persons who can address that more 
specifically can certainly be--we can arrange to have them meet 
with you from the air traffic organization.
    Mr. Chandler. Do you know who was in charge of making that 
decision as to whether there were one or two people there in 
Lexington?
    Mr. Sabatini. Well, ultimately, it is the chief operating 
officer, Russ Chew, is responsible for the air traffic 
organization.
    Mr. Chandler. Has there been any discussion with who was 
responsible that maybe they should have made a different 
decision and followed the directive? Has anybody been 
reprimanded for it?
    Mr. Sabatini. I don't have that information, sir.
    Mr. Chandler. Well, could you get back to me with that 
information, please?
    Mr. Sabatini. I certainly will do that.
    Mr. Chandler. OK.
    One other question, if I may, Mr. Chairman. Do you consider 
Lexington to be adequately staffed at this time?
    Mr. Sabatini. We believe that given the requirements there 
for the traffic that is operating in and out of Lexington, that 
it is adequately staffed.
    Mr. Chandler. Well, I understand that we are short three 
air traffic controllers in Lexington; is that not correct?
    Mr. Sabatini. As I said, I can get you the specifics for 
that tower, sir.
    Mr. Chandler. Well, I wish you had, given the importance of 
the Lexington tragedy, I wish that you had come with some of 
this information, some of this detailed information.
    One other question and I will stop. You said that there are 
14,500 air traffic controllers. Is that what you said?
    Mr. Sabatini. Yes, sir.
    Mr. Chandler. How many of those are fully trained and 
serviceable? All of them?
    Mr. Sabatini. Well, I can tell you of course that 
represents people who have recently been hired but if you need 
a further breakdown with the precision and accuracy that I 
think you are asking for, we can certainly provide----
    Mr. Chandler. I understand that it is a moving target but 
in general, is that number, does that number represent your 
average staffing level or have you just beefed it up recently 
with a flurry of new hires?
    Mr. Sabatini. Well, it does of course include the 930 and 
will reflect the difference as we get up to the 1,100. But a 
percentage of those would be new hires and the larger 
percentage would be full performance----
    Mr. Chandler. What percentage will be?
    Mr. Sabatini. I can get you that.
    Mr. Chandler. Can you get me a ballpark?
    Mr. Sabatini. I can't, sir. I don't have that information.
    Mr. Chandler. Thank you.
    Mr. Mica. Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Sabatini, thank you for your patience with all of us. 
And you understand and appreciate our concerns because our 
concerns are really your concerns. I know that. No one is 
questioning that whatsoever.
    I am looking at your logic though in your testimony, and 
your logic is puzzling to me because you are almost saying that 
with less humans and we have humans who make mistakes, we have 
less humans who will make mistakes, that filters down through a 
lot of your testimony.
    Now, the workforce plan that the FAA has put forth states 
that new procedures use that term, new procedures. And 
technology will reduce the number of controllers needed in the 
future. What are these new procedures and what is this new 
technology?
    Mr. Sabatini. Sir, I will draw an analogy for you that has 
proven to be very, very successful in our system. If you go 
back to about the 1960's, we were operating aircraft with as 
many as five crew members in the cockpit and you had a captain, 
you had a first officer, you had a flight engineer, you had a 
radio navigator, and you had a radio operator and the 
navigator. Five people. Today the most sophisticated, the most 
sophisticated aircraft that man has been able to design and 
with greater capability is operated by two people: A captain 
and a first officer.
    Mr. Pascrell. Mr. Sabatini--I will let you finish but I 
want to go so I don't lose it. I am a slow learner, so I want 
to take a little bit at a time. If what you just presented to 
us is very true, less people in the cockpit and there are more 
people looking at radar screens. So the state of the art is 
followed up in the air and also on the ground. There are 
reasons and you are absolutely correct. So continue, please.
    Mr. Sabatini. So continuing with the analogy, we now 
operate the most sophisticated airplanes with two crew members. 
The point being that we have used technology to enhance human 
performance.
    Let me give you an example of the technology in Atlanta.
    There is a new technology, that we refer to in our 
performance-based national air space that is called required 
navigation performance. It provides us with tremendous 
precision and accuracy for navigation such that with that kind 
of precision operating out of Atlanta, and we have been doing 
this now for almost a year. Delta, the major operator out of 
there, claims because of that precision, $38 million a year 
savings just in fuel alone. As far as the air traffic 
controllers are concerned, that technology has enabled the 
reduction of the voice communications between pilots and 
controllers by as much as, and I will be very conservative, 40 
percent. That has allowed controllers to do what they prefer to 
do and that is observe and manage traffic flow and that is the 
kind of technology that we need to take and bring into place 
with our next generation air transportation.
    Mr. Pascrell. Thank you. And you do know and you know it 
better than I do, about the basics of working in the control 
tower and that is--there is reading and then there is 
operation. In every place that I have seen in FAA literature, 
that must be designated and defined so that they are not 
confused, so that there are carefully deliberated 
responsibilities. It is an absolute horrific absurdity as Woody 
Allen would say, that anybody could even hesitate about their 
only being one person in the control tower in Kentucky.
    Now Mr. Dillingham, you responded in your testimony, which 
you didn't read, you couldn't read the whole thing obviously. 
You did say that on page 13 that in addition, although general 
aviation accidents, on a whole, decreased in recent years, 
general aviation safety is also a concern because the large 
number of fatal accidents every year, an average of 334 fatal 
accidents since the year 2000.
    So we have reduced the number of accidents and that has 
still remained the average number of fatal--of fatal accidents. 
Furthermore, you brought other industry sectors such as cargo 
operations and on demand air balances have poor safety records 
as mentioned earlier. So I notice you are double reverse before 
in reaction to--in response to the gentlelady from New York, 
and I understand. I--I am a decent human being, and you 
shouldn't have been asked the question. In fact, isn't that 
your job, Mr. Zinser, in your position as inspector general, 
and you know, there is 50 inspector--over 50 inspectors 
general. Half of them get appointed by the President, and the 
other half get appointed by whoever the Secretary happens--
happens to be within the Department. You have a very specific 
obligation and responsibility which you already know about.
    But in case anybody who doesn't understand it of overseeing 
what happens in the very department that you are assigned to. 
And I have got a question to ask you. You state in your 
testimony that the FAA needs to address the issue of air 
traffic controller attrition and staffing at each facility. 
That is what you stated in your testimony, correct----
    Mr. Zinser. Yes, sir.
    Mr. Pascrell. Now it is my understanding that FAA recently 
released an update of its 2000 air traffic controller workforce 
plan. In the IGs view, does FAA's current work force plan 
provide a comprehensive roadmap to ensure that we have a 
sufficient number of controllers at each facility? If you want 
me to repeat the question, I will. If you understand the 
question, I would like a very precise answer.
    Mr. Zinser. Yes, sir. I think I understand the question. 
You are referring to the workforce plan that FAA just submitted 
in August.
    Mr. Pascrell. That is correct.
    Mr. Zinser. In our view, it is missing two critical pieces. 
I think FAA has some explanation for why those pieces are not 
in the report, but, in our view, it is missing the cost of 
hiring the number of air traffic controllers necessary to make 
up for the attrition, and it is also missing facility-by-
facility numbers of how many air traffic controllers are 
necessary. We have been reporting on that for a couple of years 
now, and I think the numbers are still needed.
    Mr. Pascrell. Mr. Zinser, thank you so much.
    There are two things I would like to leave with the 
committee, if I may, with the Chair; and it is this.
    We are not only talking about attrition. Attrition is 
numbers. I am talking about the experience that leaves the box.
    You have a similar situation, Mr. Chairman, right here on 
Capitol Hill when we force police officers and our bodyguards--
whatever you want to call them--when they become 57 years of 
age to get the heck out of the system. We are losing a 
tremendous amount of expertise, which is being lost in the 
control towers when you see the kind of training that perhaps 
we should be giving but we are not giving.
    There is another problem. The amount of overtime of the 
police officers here on Capitol Hill is astronomical. The 
problem is no one is being held accountable as we push people 
out of the system. And there is a reason for it. We push out 
the higher-paying folks. We bring in those at the basic salary.
    I hope that we are going to look very carefully about these 
so-called, Mr. Sabatini, these so-called new procedures and new 
technologies. We all appreciate--we are pretty familiar not 
with all the technology, but we are pretty familiar as to the 
changes that have occurred in the airline business, in the 
airplane business and the operations business in the past 5 or 
6 years. We have a pretty good, general idea of that. Not as 
good as you, but, you know, some latitude and longitude.
    But, Mr. Sabatini, it has got to be very, very clear that 
you are going to have to have a reckoning, I am going to have 
to have a reckoning when we look back at this every year. We 
have oversight. Mr. Zinser has oversight. GAO will continue to 
write----
    Because there is a lot of other things you said in here, 
Mr. Dillingham, I don't have time to spend on now. You chose 
not to read that, and you are going to have to make this 
situation much better, and we are going to make sure that you 
do that.
    It is unacceptable as far as I am concerned. I can't speak 
for Mr. Chairman. It is unacceptable, the answers you gave him, 
about what happened in Kentucky. Either it is a directive or it 
is not a directive. Who made the decision that there is only 
one controller? You must answer that question. We have a right 
to ask that question.
    And your response was, I will get back to you? Who are you 
talking to here? You are talking to those people who have been 
duly elected--and I know when you said--and you weren't here 
before when I mentioned the fact--with the great work that you 
have done, Mr. Chairman, in terms of the explosive detection, I 
mean, that is on the front page of many of the papers today. 
And the fact is, if we don't do it, nobody is going to do it, 
and it is as simple as that.
    What he asked is a very basic question, and we got 
gobbledygook, and you know it just as well as I do.
    Mr. Mica. Well, I thank the gentleman.
    And did you want to respond? Or Mr. Bishop is waiting 
patiently.
    Mr. Sabatini. I would just add one piece, that we have 
approved many waivers that allowed folks to stay on beyond age 
56--that is, air traffic controllers--and we just use a very 
reasonable amount of overtime to accommodate the needs as the 
need arises.
    Mr. Pascrell. Mr. Chairman, we are proud Italian-Americans. 
We talk straight. You are not talking straight right now. I 
know you are a straight person. And you didn't answer his 
question. And you know that in your heart that you did not 
answer his question. That is unacceptable.
    God forbid that today there is another situation in another 
part of America and there is only one controller there, OK, and 
there is no waiver, OK, and he has a fatality. If he dies, he 
can't come up for air. A thousand things can happen when you 
are a human being. What are we going to do about it? Are we 
going to say, I will have to look at the circumstances and get 
back to you, OK?
    Mr. Mica. Mr. Bishop, waiting patiently, you are 
recognized.
    Mr. Bishop. Thank you, Mr. Chairman.
    I want to thank you and the ranking member for allowing me 
to take part in this hearing, even though I am not a member of 
the subcommittee.
    I have several concerns about the relationship between the 
FAA and the air traffic controllers, but several of my 
colleagues have addressed those. So I am here to talk about--or 
ask questions about other issues.
    Mr. Sabatini, I would like to ask you about center wing 
fuel tanks inerting systems. It was off of East Moriches, Long 
Island, which is in my district, that Flight 800 crashed into 
the Atlantic in July of 1996, more than 10 years ago.
    The NTSB rather quickly determined or at least surmised 
that the cause of the crash was an explosion in the center wing 
fuel tank. They made their first recommendation that there be 
some type of flammability mitigation system installed in 
December of 1996. They then added that recommendation to their 
so-called most wanted list in 2002, and then I offered 
legislation in October of 2005 that has actually attracted a 
fair number of cosponsors that would require the installation 
of some flammability mitigation system in fuel tanks.
    The FAA offered a proposed rule in November of 2005. So 
about nine and a half years after the crash and after the 
initial recommendation from the NTSB. It is now September of 
2006.
    So I guess my first question to you is, why does it take 
nine and a half years for the FAA to address a safety issue 
that has been brought to them both by human tragedy and by an 
NTSB investigation and recommendation?
    Mr. Sabatini. I agree with you, sir. That was a tragic 
event and a terrible loss of life.
    But when you go back in time and look at the actions that 
the FAA has taken, we immediately introduced a special Federal 
aviation regulation, S-488, to look at what we thought could be 
the identification of possible failures in wing tanks in terms 
of the ignition sources. But we all know that just the 
identification of ignition sources is not sufficient, and we 
agree with you that fuel inerting is an important direction to 
take and a solution that is significant in terms of preventing 
future types of accidents.
    But, at the time, the only technology that existed in terms 
of inerting was what the military had; and it was very heavy, 
very expensive and not very reliable for application and 
commercial aviation. The FAA took it upon itself with some 
industry help in doing--in research and development at the tech 
center in Atlantic City and devised a very reliable, very 
effective and very cost-effective lightweight fuel inerting 
system; and that is what has taken time.
    R&D was very challenging. It was not an easy thing to get 
to, but the good news is we are there today. We have proposed a 
rule, as you have acknowledged, and we are dispositioning the 
comments as we speak, and we expect that to continue forward in 
the rule-making process.
    Mr. Bishop. Thank you very much for that.
    Let me just--the rule-making period or the comment period--
pardon me--is now closed.
    Mr. Sabatini. Yes.
    Mr. Bishop. I have two questions. One, when do you think 
you will be issuing a final rule? And, secondly, can you 
outline for us briefly, because we are going to run out of 
time, what are the principle arguments against installing these 
systems that have been--that have come forward in the comment 
period?
    Mr. Sabatini. There are very sophisticated and very 
knowledgeable organizations that have challenged the FAA on the 
logic to even go forward. So we are working to address that. 
And that is not just a simple yes or no kind of an answer. It 
is a very science-based kind of response which is very 
challenging. But we are confident that we are going to be 
successful; and, as I said, the kind of challenges that we are 
getting are on cost and challenging the science behind what we 
are saying is an effective system.
    Mr. Bishop. When you say you are confident that you are 
going to be successful, are you suggesting that you will 
ultimately issue a rule that will require the installation of 
these systems both in existing aircraft and in new aircraft?
    Mr. Sabatini. I am confident that we will put out a rule 
that will require a flammability reduction means, and what that 
really says is that we are not going to specifically mandate 
that it be fuel tank inerting but the only solution to get you 
to where we want you to be to meet what we call into rule of 
these performance standards is only to be achieved by fuel tank 
inerting. So you can come up and say we have an equivalent 
means of achieving that same level of protection, and we would 
accept that. So that is what the rule is going to require.
    Mr. Bishop. OK. And just one last question. Thank you very 
much for that. About when do you think you will issue that 
rule?
    Mr. Sabatini. September of 2007 we expect to have the final 
rule.
    Mr. Bishop. OK, so a year from now.
    Mr. Sabatini. Yes, sir.
    Mr. Bishop. So that would mean a 2-year period from the 
time when you began the proposed rule-making process.
    Mr. Sabatini. Yes, sir.
    Mr. Bishop. Is that normal or is that a rather extensive 
period for a proposed rule to alternately become a rule?
    Mr. Sabatini. It depends on the complexity of the rule. 
This is not an easy one, sir.
    Mr. Bishop. OK. Thank you very much, sir.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Now waiting patiently, not a member of our panel, but we 
welcome Ms. Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chairman. I am 
not a member of the subcommittee nor the full committee, so I 
greatly appreciate this opportunity.
    My local hometown paper, The Miami Herald, recently 
published a series that they entitled "Deadly Express;" and it 
exposed some very troubling facts and figures regarding the 
aviation cargo industry, focusing on smaller air cargo planes.
    The series exposed many of the problems that are related to 
this industry, and they reported a staggering 60 crashes and 80 
deaths over a 5-year period. It also revealed that cargo pilots 
are frequently flying very long hours with inadequate flight 
training themselves. So with less training than commercial air 
pilots and with tight deadlines imposed upon them by their 
business entities, they frequently fly in weather that would 
normally ground commercial aviation. Inspections and 
maintenance of these smaller air cargo planes are not regulated 
by the same standards that apply to larger carriers, and this 
frequently leads to ill-maintained and faulty equipment.
    So all of these factors--older planes, tight deadlines, lax 
inspections, less pilot training, bad equipment, insufficient 
safety features--all of this combines to create a very 
dangerous work environment that fails to protect pilots of 
smaller air cargo carriers.
    I would encourage our panelists to closely examine the 
regulations impacting our small air cargo industry in order to 
make our skies safe for pilots as well as citizens. As the 
Department of Transportation Inspector General review points 
out, there is a large loophole in the inspection of small air 
cargo planes. Small air cargo planes are not mandated to 
undergo the same rigorous inspection regimes as other older 
planes, due to probably monetary concerns.
    Air cargo planes that are more likely to crash are 26 years 
old, three times older than commercial passenger airline planes 
and had fewer safety features. As the FAA mandate states, there 
should be one level of safety.
    So, with that, I would like to pose three questions to the 
panelists.
    Why don't the same safety standards apply to all air cargo 
operators? Is it a financial difficulty tied to an inspection? 
Why is this standard less for small air cargo operators?
    Secondly, has the FAA or the National Transportation Safety 
Board conducted any studies or investigations to determine what 
can be done to reduce the incidence of accidents among small 
air cargo operators?
    And, thirdly, if air cargo has the highest frequency of 
crashes among commercial aviation, what is the FAA or the NTSB 
doing to correct this trend?
    I thank the Chairman for the opportunity.
    Mr. Mica. Well, did you want to divide--you had questions.
    Ms. Ros-Lehtinen. Whoever would like to.
    Mr. Mica. Mr. Sabatini, maybe you could take the first.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Haueter. Certainly we determine probable cause on every 
accident involving cargo flights. It is a difficult area. One 
issue is that records aren't kept in terms of number of flight 
hours, so it is hard to say whether the rate has really 
increased for this group. Certainly the numbers have gone up. 
We don't know if the rate has really changed.
    We are aware of the standards; and if we see a trend, 
definitely we would issue recommendations regarding those type 
of aircraft.
    Ms. Ros-Lehtinen. So what you are saying is that you don't 
see a trend yet or you haven't done any studies to see if there 
is a trend? A trend being there are more crashes. The planes 
are getting older. There are no records that are truly being 
kept. What is the trend? That it is not there or you haven't 
done the studies to see it?
    Mr. Haueter. We have not done a specific study on demand 
part 135 cargo operations. We have looked at a number of 
accidents, and the number has increased. However, we don't know 
whether the number of flights have increased.
    Taking another look, we have seen that most of the 
accidents, so far, are not systemic in nature, but operational 
errors. If these aircraft are driving piston-driven engines and 
the pilots have lower flight times.
    Mr. Sabatini. I would also add that we are working very 
closely with that community. They are represented, as you well 
know, by associations--RAACO being one of them, Regional 
Airline Association for Cargo Operations--and we have devised a 
number of interventions that can help address that. But I would 
tell you that what is not sought out is the accuracy with which 
newspapers report these accidents. It is not all about poor 
equipment, which I would take issue with, or poor maintenance 
or lack of oversight.
    I would tell you that we can certainly improve. We look at 
risk areas. This seems to be a risk area. We are going to 
continue to focus on addressing cargo operators.
    But you also need to know that there are instances, and I 
will use just one, where pilots decide for their own reasons to 
take an aircraft that is not certificated to fly--not 
certificated by the FAA to fly into known icing conditions but 
intentionally conduct an operation with that aircraft in known 
icing conditions, and that led to a disaster. So you need to 
sort out those kinds of accidents that are human error, those 
kinds of things, and you begin to see a slightly different 
picture.
    But I want to assure you that we take any accident very 
seriously. Any loss of life is a tragic event, and I can assure 
you that we will follow up with the cargo operators and have 
been and have put in place a number of interventions.
    Ms. Ros-Lehtinen. And you are working with the agencies and 
the organizations that these cargo operators belong to in order 
to have them suggest these more stringent regulations? Or is it 
something that we are looking at as mandated?
    Mr. Sabatini. Well, the regulations already exist. So we 
have direct responsibility for the oversight of the air 
carriers, whether they be from the FedEx and UPS level down to 
the smallest air cargo operator. So we have direct 
responsibility.
    But we also know that we can get very effective 
introduction of the immediate corrective actions collectively 
across the board by working with their associations, and they 
can voluntarily agree, and you can in the moment get the sorts 
of actions or interventions, you might say, that can be put in 
place right away, versus going through the rule-making process 
which in our form of government and our country it is checks 
and balances and it does take time. So we work quickly and 
actively with the associations and the operators.
    Ms. Ros-Lehtinen. Did you want to comment?
    Mr. Zinser. Yes, Congresswoman.
    The Chalk's Airways crash I think brought a lot of 
attention to the issue of aging aircraft. In fact, the report 
that we issued was issued after we received a request from Mr. 
Oberstar to look at what has transpired on aging aircraft. We 
did find that there are several categories of aircraft that are 
exempt from any aging aircraft review or program. There are 
even categories of aircraft that are required to undergo some 
inspections but not what is being called supplemental 
inspections to get a more detailed analysis of fatigue on 
aircraft.
    One thing FAA has done is put out a rulemaking on 
widespread fatigue on aircraft, and my understanding of what 
that rule is designed to do is establish life limits for 
aircraft. You have parts on aircraft that are life limited. You 
can only use them so long. But there really are not any 
aircraft that are life-limited. We can keep flying them, you 
know, for a long time.
    So I think part of the design of this rule is to try to get 
to what is the life-limitation on an aircraft and sort of 
address the issue. The Chalk's Airways aircraft was 58 years 
old. How long are we going to fly some of these aircraft? The 
manufacturer was long gone. The airline was making its own 
parts to keep the plane going. So I think the FAA is trying to 
address some of those issues.
    In terms of the exemptions on the current requirements, I 
think that FAA should do some more research on exactly what 
aircraft and what operations are exempt. The preliminary 
recommendation coming out of the NTSB on the Chalk's Airways 
crash is for FAA to expand their rule to cover some of these 
aircraft, and I think that deserves a pretty close examination.
    Ms. Ros-Lehtinen. Thank you so much.
    Thank you, Mr. Chairman.
    Mr. Mica. Well, thank you.
    I have some questions I want to go back to. Some of the 
issues that have been raised here have also raised some 
questions with me.
    Mr. Sabatini, we have been working under an old FAA air 
traffic controller contract. In the new contract--and some of 
that has just been released; I really don't know all the 
details of what has come into play--but does anything come to 
mind, specifics come to mind in the new contract that would 
give better flexibility and placement of personnel, utilization 
of personnel, in staffing or any of the issues that have been 
raised here today?
    Mr. Sabatini. I think one of the greatest benefits, not 
only the reduction of costs but--is the flexibility to bring 
controllers where they need to be. The example I used earlier, 
St. Louis, where American Airlines pulled out of there to stay 
with what was a negotiated agreement of authorized--that had no 
relationship to what is actually in terms of activity at that 
airport, authorizations no longer in place, but rather staffing 
standards that address the need for that particular activity at 
that airport. So it is a very powerful tool.
    Mr. Mica. So you think that you will have more flexibility 
to get people--can you get them there quicker, too, under this 
new contract?
    Mr. Sabatini. You can easily move them about the 
countryside. You can be responsive to the changes.
    Mr. Mica. So that is a change.
    You know, Lexington raised a bunch of issues. I don't want 
to get into the specifics of the crash, but FAA did raise this 
specter publicly, or issue publicly, of putting another air 
traffic controller at that location. And I heard several 
things. One was that the position had been approved in January 
or a year earlier. Do you have that--you said you didn't have 
all the time frame. Do you know?
    Mr. Sabatini. I don't have the details from----
    Mr. Mica. But it had been that a position had been approved 
earlier.
    Mr. Sabatini. Yes, it was.
    Mr. Mica. And I was told at one point that a trainee had 
appeared on the scene because--and that was sometime in April 
or May or--what I am trying to get here is we were cooperating 
under an old contract, tough to move people around. I am 
wondering, is it an inordinate amount of time--you heard the 
question occur over here that, you know, you did not have that 
position filled or you gave the discretion to a manager and it 
wasn't filled or was somebody coming or on their way there to 
fill the position. I had heard that.
    Mr. Sabatini. I need to preface that by saying I need to be 
accurate in what I say, and I will follow up to you with 
precision with that information, but I believe a new person 
was----
    Mr. Mica. Obviously, it had been approved, the position, 
earlier. It wasn't totally filled at the time of this incident, 
or was it?
    Mr. Sabatini. I will turn to someone who may have that 
information, if you will just bear with me for a moment.
    Mr. Mica. OK. A developmental was on site and had arrived 
in the summer. That was an individual--see, now that is what I 
had heard. An individual had arrived, was on site in the summer 
but wasn't fully--full-fledged air traffic----
    Mr. Sabatini. Full performance.
    Mr. Mica. What?
    Mr. Sabatini. Full performance.
    Mr. Mica. Full performance, OK. Again, I go back to the 
contract, the provisions of the contract. You are saying that 
was the old contract we are operating. The new contract went 
into effect what a few weeks ago or what?
    Mr. Sabatini. Yes, sir.
    Mr. Mica. So things could change in that regard as far as 
us being us able to place people on an expedited list.
    Lexington also got me to think about--and maybe we should--
I might ask GAO, I might ask the Inspector General or other 
people to look at this. But when we put someone at an air 
traffic control tower like Lexington, and the reports I got was 
the average traffic on a weekend night was six to eight 
flights, is that the best utilization of staff?
    Now I know FAA had looked at closing down some towers 
from--or not having them manned from midnight to, say, 5:00 
a.m. or something like that. Then at Lexington, like on a 
Sunday night--but Monday morning traffic picks up at 5:30, 
6:00--or I guess 6:00 is when they had a couple start taking 
off.
    Would it be better to go back and look at the staffing on 
the model of not having somebody there--and I know you tried 
that and some of that was rejected. Is that the case?
    Tell me again where we went with that program. You looked 
at--I know Russell did, and we got a lot of pushback. So we put 
people in some places where we may not have needed people 
because of pressure.
    Mr. Sabatini. As you know, Mr. Mica, I am responsible for 
the aviation safety organization, and I am not the person to 
get into that kind of detail. We can certainly arrange to get 
you a briefing.
    Mr. Mica. But, again, from a safety standpoint, would it be 
better to utilize your person out where you have the volume and 
the traffic or should we--is this something we should be 
looking at from a safety standpoint?
    Mr. Sabatini. Well, from a safety perspective, sir, I would 
say that the flexibility we have in this contract will enable 
us to be responsive to changes in the system and put the 
appropriate number of people where they need to be.
    Mr. Mica. This raised another question of safety and 
utilization of personnel. If I put one person at Lexington 
downstairs, as was described here, he is not really a reliever 
for the guy upstairs, is he? Is that part of his 
responsibility? Do you know?
    Mr. Sabatini. That would not be part of his responsibility.
    Mr. Mica. Now if I am putting somebody downstairs and that 
guy's responsibility is to look at a radar screen and he is not 
looking at it, this made me think we need to be looking more at 
consolidations where I can put that--if that person doesn't 
have to be in that location but could be in a location where we 
could have a consolidation, it seems like you would have 
redundancy and backup in human personnel to be on that screen. 
This guy has to go potty or he has to excuse himself for 
something, and I got one guy--that is not--I don't have a lot 
of redundancy in the system. Wouldn't it be safer for some 
consolidations where you can have that redundancy?
    Mr. Sabatini. I believe it would be, sir, and that you 
would have the leverage of using resources in the way that they 
combined and you get a synergy out of that.
    Mr. Mica. I think we are going to have to find a way--and 
people have come to me about a base closure type or BRAC kind 
of thing to do some of this. Because every time we want to move 
one air traffic controller, it is like we are changing the 
world as we know it. You get the political pressure to call on 
Members of Congress. It doesn't seem like a very efficient way 
to run the railroad or the air traffic control system.
    OK, now, in April of 2000, before I became chairman, we had 
a GAO study done--was it GAO? I am sorry--IG study done. It 
said contract towers continue to provide services that are 
comparable to the quality and safety of FAA-operated towers. 
Users remain supportive of the program. The program has been 
successful in providing air traffic control services at low 
activity airports at lower cost than the agency could otherwise 
provide.
    Now that showed that--and low activity--I guess with 
Lexington or that kind of airport--be a low activity or--a 
contract tower--and I haven't heard a lot of problems with 
staffing. It seems like the private sector is able to staff 
people in a little bit more expedited fashion. But I will give 
you the discretion you have under the new contract to do some 
of that to see how that works.
    But that was 2000, and when I cited this I got hammered by 
folks that this was, oh, they didn't ask the right questions. 
So when I was chairman in September of 2003, we had GAO ask 
more questions that were wanted to--folks said needed to be 
asked. And they said this is, quote, in terms of safety of 
operations as measured by operational errors slash deviations, 
both the contract towers and the FAA staff VFR towers fell well 
below FAA's 2002 overall average of 6.7 operational errors for 
every 1 million operations handled. We found that the contract 
controllers met qualification requirements, received regular 
training, and users were satisfied with the services they 
received at contract locations.
    Mr. Zinser, so they said they were safer, at least from an 
operational standpoint to operational errors and deviation. 
And, actually, I think we also found they cost a lot less. Is 
that correct?
    Mr. Zinser. Yes, sir. Each time we looked at that program, 
the results would be the same.
    Mr. Mica. So you would recommend, too, from that study some 
60 towers be converted to that where we could save money, 
probably hire more air traffic controllers someplace else, 
probably have more management, flexibility in meeting the needs 
of a small airport. So it seems like we are playing a little 
bit of a game where we have facts and statistics that we could 
better utilize our personnel from a safety standpoint. And this 
hasn't been measured once. It has been measured several times. 
Mr. Zinser, am I reading--taking something from this I 
shouldn't?
    Mr. Zinser. No, sir. I think you are reading it correctly.
    Mr. Mica. Mr. Sabatini?
    Mr. Sabatini. I would agree with that as well.
    Mr. Mica. So I think we really need to look at what we are 
doing. I mean, this has raised--you know, it is horrible. 
Forty-nine people lost their life in Lexington, but Lexington 
may send a message that we need to look at the safety and 
application of our personnel and utilization of personnel with 
systems and programs that make us safer; and the ironic thing 
is the thing even costs less for the taxpayers when instituted 
and we get that management flexibility. Then the consolidation 
of some of these locations we need to look at for redundancies 
in the system.
    We also had--I heard the outage issue, and that does 
concern me. We did have a briefing before, and I don't--that 
was an accidental power outage that was raised by one of the 
members. That was a safety concern.
    Now redundancy was mentioned by both Mr. Sabatini and Mr. 
Hayes and also training and protocols that the pilots should 
know. That, however, still could pose a risk, having some of 
these facilities down, maybe in our larger locations. Is 
anybody on the panel aware of where we may stand in power 
redundancy? I mean, nice to have air traffic controllers 
sitting in front of screens and directing traffic and all this 
electronic equipment, but the failure to have power redundancy, 
what have you got on that, Mr. Sabatini?
    Mr. Sabatini. I would tell you that there are backup 
systems throughout the ATO in their structure. What happened 
there was human error again. It was a mistake. It was 
accidental.
    Mr. Mica. But there was no backup for that human error.
    Mr. Sabatini. No, because they actually switched over to 
the backup.
    Mr. Mica. OK. OK. Mr. Zinser, did you have something?
    Mr. Zinser. Sir, I do not think we have a lot of data on 
how many outages occur in situations similar to what was 
reported here this afternoon. I think there have been some 
locations in the recent past where there have been outages but 
I do not think there are data where it is a widespread issue.
    Mr. Mica. OK. Well, that concerns me from some of the 
incidents I have heard, and I think that is something we need 
to keep an eye on to make certain we have that capability.
    Anybody recommend--OK, based on what you see, what you have 
heard, you are all experts on safety, is there any change that 
we need to make in statute for any reason that you are aware of 
at this point in time and space that would improve safety? Is 
there something, a legislative change, something you can't do 
by rule or your action that you already have with your current 
authority?
    Mr. Sabatini, anything you think we need to address 
legislatively?
    Mr. Sabatini. Sir, as you know, we are going through 
reauthorization; and we certainly have been thinking----
    Mr. Mica. Anything you can think of in safety you are 
lacking? You have all the jurisdiction, the tools you need to 
proceed.
    Mr. Sabatini. Yes, sir. Yes, sir, we do. There are some 
minor things.
    Mr. Mica. Dollars that are missing, but you don't get into 
that business.
    Anything you can think of Mr. Haueter?
    Mr. Haueter. Well, we don't have regulatory authority, 
obviously, but we continue to have your support of our 
recommendations to help push them.
    Mr. Mica. We changed where we used to put so many 
recommendations on the shelf that they are no longer just left 
on the shelf. They are brought back up.
    Mr. Haueter. We appreciate that, sir.
    Mr. Mica. Is there anything--now you are--and we apologize. 
I have tried to move your reauthorization. I am hoping we can 
get it next week. That would be real fun. I would have an 
NTSB--but anything there in the wrong direction, right 
direction, missing?
    Mr. Haueter. From the NTSB point of view?
    Mr. Mica. Yeah.
    Mr. Haueter. Well, certainly we could use more staff, sir.
    Mr. Mica. Oh, OK. I am just teasing. Anything else 
legislatively?
    Mr. Haueter. No, sir.
    Mr. Mica. Mr. Dillingham?
    Mr. Dillingham. No, sir.
    I agree with Mr. Sabatini. I think we have adequate tools. 
Those tools need to be played out at this point in time before 
additional legislation should be considered, we believe.
    Mr. Mica. Mr. Zinser?
    Mr. Zinser. Mr. Chairman, we prepared a lot for this 
hearing, but we did not prepare for that question. To be honest 
with you, I really cannot think of a specific issue where 
legislation is needed. I think there are a lot of rulemakings 
under way that if they do not move, you may want to consider 
legislating them, but, at this point, I would have to say I do 
not have a specific item.
    Mr. Mica. Now, one question that was raised by several 
members was this new--this new trend towards outsourcing 
repairs, maintenance. It appears, of course, that is going to 
continue; and everybody believes we have the current authority 
to handle that if we want to, OK? Nothing has to be legislated 
as far as the standards or requirements for aircraft that fly 
in U.S. airspace and carry domestic U.S. passengers? No?
    OK, I think I have covered all the remaining--not all. I 
have additional questions that we will be submitting for the 
record. So Mr. Costello moves that we keep the record open for 
a period of what?
    Mr. Costello. I do indeed.
    Mr. Mica. I will give you all the time I want.
    Mr. Costello. I so move for a period of 2 weeks.
    Mr. Mica. Without objection, so ordered.
    One other question. I should know the answer to this as 
Chairman, but, actually, we don't do the--the FTEs, are there 
FTEs for air traffic controllers set by Congress, by the 
appropriators? Does anybody know?
    Mr. Sabatini. I will ask.
    Mr. Mica. FTEs.
    Mr. Sabatini. We don't believe so, sir. I will get you that 
information.
    Mr. Mica. See, because I want to know--now, you told me--
and the other question we have--we have got to look at here is 
the determination of how many air traffic controllers are 
sufficient, how many inspect--I think the inspection function 
is very critical to this whole process. And there are a number 
of other positions, professional positions, that must be 
staffed. And you know that some of the downsizing we have done, 
how I have expressed my concern that we can't even get near the 
margins on these things.
    This brings up the question of how do we decide what is 
enough as far as coverage for air traffic controllers, 
inspectors, other key positions? Tell me how we do that now 
within this regime, and then if FTEs are mandated by Congress, 
then--and I guess they are for the rest of FAA, I would 
imagine.
    Mr. Sabatini. They certainly are for the safety 
organization, Mr. Chairman.
    I would tell you that, as I mentioned earlier, our first 
priority is continued operational safety. We will never 
compromise safety. But as we assure that we deploy our 
personnel to address the number one priority, it shows up in 
terms of not being as responsive to the applicants who wish to 
receive the services of the FAA for the certification of an 
engine, a component or to be certificated as an air carrier. So 
that is where it shows up, and what you see is a delay in 
getting to those folks.
    Mr. Costello brought up the foreign repair stations. I can 
tell you that we have a pending list of applicants, as many--I 
believe the last figure was about 94 pending applicants for 
certification, which we will not certificate because we know we 
cannot add 94. So what shows up is the inability to be 
responsive to those who wish to be certificated.
    Mr. Mica. Again, how--are you, Russell and Marian sitting 
in a dark room somewhere and saying--you have a formula in all 
of that to say, 14,670 controllers, that is your--that was your 
target. How did you reach that? Maybe you could just elaborate 
a minute on that process. How much is adequate? Who is making 
that decision?
    Mr. Sabatini. Well, we respond to what we can anticipate. 
There isn't a barometer for us to say, well, this year we can 
expect X more people applying for what we would provide as a 
service for certification. In fact, during bad economic times 
you will find that that decreases; during good economic times, 
as we see today, we have an increase in the number of 
applicants.
    But specifically for our organization, Mr. Chairman, as you 
know, we are working with the National Academies of Science who 
are working with us to develop a staffing standard for the ABS 
organization. I do know that there is a staffing standard that 
has been developed on behalf of the ATO, and while I don't have 
that document here, and I am certainly not the person with the 
kind of detail to address the ATO in that kind of detail, we 
certainly can----
    Mr. Mica. --responsibility in charge of safety? Again, I am 
trying to get a handle on how we say that 14,670 is the 
adequate number to service all of our towers and 
responsibilities.
    Mr. Sabatini. Well, sir, I would say that the evidence is 
quite clear. We will acknowledge today that this is the safest 
system in the world, and that is the objective evidence of good 
work being done. So we are in the throes of, as I said, 
addressing the staffing standard.
    And I would also say that the air carriers today are 
providing us with one of the safest systems in the world, and 
we don't regulate them in terms of how many people they need to 
have to conduct safe operations, except in those areas where it 
is obvious. Well, if it is a crew of two in an airplane, you 
have to have two flight crew members or where flight attendants 
are required for a certain number of seating capacity. But as 
far as how to operate the air carrier, we do not specify how 
many people they need to have to safely conduct the operation. 
The output is the objective evidence, and that is what we look 
at.
    And it is the same with us. Right now, we don't have a 
formula. It is a complicated formula. It is no different than 
what you have heard about the air traffic organization.
    Mr. Mica. Drafting--again, you have got a whole new set--
new contract. Are you telling me this is in transition and you 
are feeling your way, so to speak? But I mean--or is there some 
formula I can address? Is it requests from the managers of 
towers across the country?
    Mr. Sabatini. Well, I think the transit organization--that 
formula already exists. As I said, I can provide that to you, 
but I don't have it myself personally today.
    Mr. Mica. Anybody else want to comment on the adequacy of 
the current----
    Mr. Zinser. Sir, your question is a central question that 
FAA has to deal with. What we have been recommending is that 
FAA come up with a standard, facility by facility. There are 
facilities out there right now, for example, where the 
allocation from FAA headquarters is a hundred controllers more 
than what they have on staff right now, and they are operating 
fine. And the overtime is not exaggerated or inordinate either.
    So what we are recommending is that they narrow that gap--
even if it is just a range at each facility of how many 
controllers they need. What I was just told today is that FAA 
managers have done a facility-by-facility bottom up estimation 
of how many controllers they need at each facility. Those are 
not published, but they have them. They have asked the MITRE 
Corporation to come in and validate those numbers and help them 
come up with a facility----
    Mr. Mica. Do we know where we are on MITRE's validation? 
And, again, all this would be new, because we are in a new 
contract, sort of a new year.
    Mr. Zinser. My understanding is that they have begun with 
the enroute centers, but I don't think that is completed.
    Mr. Mica. The other thing, too--and I think Mrs. Kelly is 
gone--but as I recall when I visited there--now she said there 
is a reduction in air traffic controllers, but there is also 
reduction in air traffic. Which means you have sort of a 
floating requirement.
    I mean, if you have somebody like Independence pull out of 
Dulles--I don't know how many they had at Dulles, but you take 
out--what did they have? 350 flights a day or something? It was 
just a phenomenal amount. They chopped that in half.
    Under this contract, you have the ability now to move those 
people to someplace else or----
    Mr. Sabatini. That is absolutely correct.
    Mr. Mica. --they just sit there and collect the salary.
    Mr. Sabatini. They are. You are absolutely correct. With 
this contract, we have the flexibility to move people where 
they are needed.
    Mr. Mica. I want to see the MITRE----
    Mr. Zinser. I am told that it is expected in draft in the 
enroute centers by the end of the year.
    Mr. Mica. I hope to be here as a member.
    Mr. Costello.
    Mr. Costello. Thank you, Mr. Chairman. I hope you are here, 
too, sitting where I am.
    I don't have any further questions, but let me just make a 
point that in September of 2003 the GAO made some observations 
concerning the issue of contract towers and looked at the issue 
of safety, and I would ask unanimous consent Mr. Chairman that 
we enter that GAO report into the record.
    Mr. Mica. Without objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 30668.006
    
    [GRAPHIC] [TIFF OMITTED] 30668.007
    
    [GRAPHIC] [TIFF OMITTED] 30668.008
    
    Mr. Costello. With that, Mr. Chairman, I appreciate your 
calling this hearing. I think that in the coming months that we 
need to come back and examine some other issues concerning 
safety.
    Mr. Mica. And I want to compliment you because, you know, 
we have been so focused on security, security, ATO--or ATC 
modernization, we got back into it, but we have not paid enough 
attention. I appreciate Mr. Costello's request for this 
hearing, and I think we will do a follow-up. We may need to 
bring in some other players, because we have a great record and 
those probably--out of sight, out of mind. Maybe Lexington is a 
little bit of a wake-up call or a reminder, but we do need to 
see whatever we can do.
    I will also submit a question asking your recommendation on 
R&D for technology. Of course, we are getting into--and I have 
seen the price tag on the end gas, the next generation air 
traffic control system, but also things we can do in the short 
term, either R&D or deployment of existing technology on a 
cost-effective basis to enhance safety, and we can spend the 
rest of the night talking about some of that. So I look forward 
to your recommendations on that.
    Finally, we did have at least one member from another panel 
and from the full committee ask a question. I have a question 
from Congressman Tom Reynolds. He is not on the committee, but 
we also granted him the courtesy of submitting a question. That 
will be submitted for Mr. Sabatini, I believe; and we will ask 
for a response. It is on a specific incident.
    There being no further business, I ought to just break for 
a few minutes and then call you back for a few more hours. No, 
I'm just kidding.
    There being no business to come before the subcommittee, I 
want to thank our panel of witnesses and those who participated 
here today. This hearing is adjourned.
    [Whereupon, at 5:53 p.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 30668.009
    
    [GRAPHIC] [TIFF OMITTED] 30668.010
    
    [GRAPHIC] [TIFF OMITTED] 30668.011
    
    [GRAPHIC] [TIFF OMITTED] 30668.012
    
    [GRAPHIC] [TIFF OMITTED] 30668.013
    
    [GRAPHIC] [TIFF OMITTED] 30668.014
    
    [GRAPHIC] [TIFF OMITTED] 30668.015
    
    [GRAPHIC] [TIFF OMITTED] 30668.016
    
    [GRAPHIC] [TIFF OMITTED] 30668.017
    
    [GRAPHIC] [TIFF OMITTED] 30668.018
    
    [GRAPHIC] [TIFF OMITTED] 30668.019
    
    [GRAPHIC] [TIFF OMITTED] 30668.020
    
    [GRAPHIC] [TIFF OMITTED] 30668.021
    
    [GRAPHIC] [TIFF OMITTED] 30668.022
    
    [GRAPHIC] [TIFF OMITTED] 30668.023
    
    [GRAPHIC] [TIFF OMITTED] 30668.024
    
    [GRAPHIC] [TIFF OMITTED] 30668.025
    
    [GRAPHIC] [TIFF OMITTED] 30668.026
    
    [GRAPHIC] [TIFF OMITTED] 30668.027
    
    [GRAPHIC] [TIFF OMITTED] 30668.028
    
    [GRAPHIC] [TIFF OMITTED] 30668.029
    
    [GRAPHIC] [TIFF OMITTED] 30668.030
    
    [GRAPHIC] [TIFF OMITTED] 30668.031
    
    [GRAPHIC] [TIFF OMITTED] 30668.032
    
    [GRAPHIC] [TIFF OMITTED] 30668.033
    
    [GRAPHIC] [TIFF OMITTED] 30668.034
    
    [GRAPHIC] [TIFF OMITTED] 30668.035
    
    [GRAPHIC] [TIFF OMITTED] 30668.036
    
    [GRAPHIC] [TIFF OMITTED] 30668.037
    
    [GRAPHIC] [TIFF OMITTED] 30668.038
    
    [GRAPHIC] [TIFF OMITTED] 30668.039
    
    [GRAPHIC] [TIFF OMITTED] 30668.040
    
    [GRAPHIC] [TIFF OMITTED] 30668.041
    
    [GRAPHIC] [TIFF OMITTED] 30668.042
    
    [GRAPHIC] [TIFF OMITTED] 30668.043
    
    [GRAPHIC] [TIFF OMITTED] 30668.044
    
    [GRAPHIC] [TIFF OMITTED] 30668.045
    
    [GRAPHIC] [TIFF OMITTED] 30668.046
    
    [GRAPHIC] [TIFF OMITTED] 30668.047
    
    [GRAPHIC] [TIFF OMITTED] 30668.048
    
    [GRAPHIC] [TIFF OMITTED] 30668.049
    
    [GRAPHIC] [TIFF OMITTED] 30668.050
    
    [GRAPHIC] [TIFF OMITTED] 30668.051
    
    [GRAPHIC] [TIFF OMITTED] 30668.052
    
    [GRAPHIC] [TIFF OMITTED] 30668.053
    
    [GRAPHIC] [TIFF OMITTED] 30668.054
    
    [GRAPHIC] [TIFF OMITTED] 30668.055
    
    [GRAPHIC] [TIFF OMITTED] 30668.056
    
    [GRAPHIC] [TIFF OMITTED] 30668.057
    
    [GRAPHIC] [TIFF OMITTED] 30668.058
    
    [GRAPHIC] [TIFF OMITTED] 30668.059
    
    [GRAPHIC] [TIFF OMITTED] 30668.060
    
    [GRAPHIC] [TIFF OMITTED] 30668.061
    
    [GRAPHIC] [TIFF OMITTED] 30668.062
    
    [GRAPHIC] [TIFF OMITTED] 30668.063
    
    [GRAPHIC] [TIFF OMITTED] 30668.064
    
    [GRAPHIC] [TIFF OMITTED] 30668.065
    
    [GRAPHIC] [TIFF OMITTED] 30668.066
    
    [GRAPHIC] [TIFF OMITTED] 30668.067
    
    [GRAPHIC] [TIFF OMITTED] 30668.068
    
    [GRAPHIC] [TIFF OMITTED] 30668.069
    
    [GRAPHIC] [TIFF OMITTED] 30668.070
    
    [GRAPHIC] [TIFF OMITTED] 30668.071
    
    [GRAPHIC] [TIFF OMITTED] 30668.072
    
    [GRAPHIC] [TIFF OMITTED] 30668.073
    
    [GRAPHIC] [TIFF OMITTED] 30668.074
    
    [GRAPHIC] [TIFF OMITTED] 30668.075
    
    [GRAPHIC] [TIFF OMITTED] 30668.076
    
    [GRAPHIC] [TIFF OMITTED] 30668.077
    
    [GRAPHIC] [TIFF OMITTED] 30668.078
    
    [GRAPHIC] [TIFF OMITTED] 30668.079
    
    [GRAPHIC] [TIFF OMITTED] 30668.080
    
    [GRAPHIC] [TIFF OMITTED] 30668.081
    
    [GRAPHIC] [TIFF OMITTED] 30668.082
    
    [GRAPHIC] [TIFF OMITTED] 30668.083
    
    [GRAPHIC] [TIFF OMITTED] 30668.084
    
    [GRAPHIC] [TIFF OMITTED] 30668.085
    
    [GRAPHIC] [TIFF OMITTED] 30668.086
    
    [GRAPHIC] [TIFF OMITTED] 30668.087
    
    [GRAPHIC] [TIFF OMITTED] 30668.088
    
    [GRAPHIC] [TIFF OMITTED] 30668.089
    
    [GRAPHIC] [TIFF OMITTED] 30668.090
    
    [GRAPHIC] [TIFF OMITTED] 30668.091
    
    [GRAPHIC] [TIFF OMITTED] 30668.092
    
    [GRAPHIC] [TIFF OMITTED] 30668.093
    
    [GRAPHIC] [TIFF OMITTED] 30668.094
    
    [GRAPHIC] [TIFF OMITTED] 30668.095
    
    [GRAPHIC] [TIFF OMITTED] 30668.096
    
    [GRAPHIC] [TIFF OMITTED] 30668.097
    
    [GRAPHIC] [TIFF OMITTED] 30668.098
    
    [GRAPHIC] [TIFF OMITTED] 30668.099
    
    [GRAPHIC] [TIFF OMITTED] 30668.100
    
    [GRAPHIC] [TIFF OMITTED] 30668.101
    
    [GRAPHIC] [TIFF OMITTED] 30668.102
    
    [GRAPHIC] [TIFF OMITTED] 30668.103
    
    [GRAPHIC] [TIFF OMITTED] 30668.104
    
    [GRAPHIC] [TIFF OMITTED] 30668.105
    
    [GRAPHIC] [TIFF OMITTED] 30668.106
    
    [GRAPHIC] [TIFF OMITTED] 30668.107
    
    [GRAPHIC] [TIFF OMITTED] 30668.108
    
    [GRAPHIC] [TIFF OMITTED] 30668.109
    
    [GRAPHIC] [TIFF OMITTED] 30668.110
    
    [GRAPHIC] [TIFF OMITTED] 30668.111
    
    [GRAPHIC] [TIFF OMITTED] 30668.112
    
    [GRAPHIC] [TIFF OMITTED] 30668.113
    
    [GRAPHIC] [TIFF OMITTED] 30668.114
    
    [GRAPHIC] [TIFF OMITTED] 30668.115
    
    [GRAPHIC] [TIFF OMITTED] 30668.116
    
    [GRAPHIC] [TIFF OMITTED] 30668.117
    
    [GRAPHIC] [TIFF OMITTED] 30668.118
    
    [GRAPHIC] [TIFF OMITTED] 30668.119
    
    [GRAPHIC] [TIFF OMITTED] 30668.120
    
    [GRAPHIC] [TIFF OMITTED] 30668.121
    
    [GRAPHIC] [TIFF OMITTED] 30668.122
    
    [GRAPHIC] [TIFF OMITTED] 30668.123
    
    [GRAPHIC] [TIFF OMITTED] 30668.124
    
    [GRAPHIC] [TIFF OMITTED] 30668.125
    
    [GRAPHIC] [TIFF OMITTED] 30668.126
    
    [GRAPHIC] [TIFF OMITTED] 30668.127
    
    [GRAPHIC] [TIFF OMITTED] 30668.128
    
    [GRAPHIC] [TIFF OMITTED] 30668.129
    
    [GRAPHIC] [TIFF OMITTED] 30668.130
    
    [GRAPHIC] [TIFF OMITTED] 30668.131
    
    [GRAPHIC] [TIFF OMITTED] 30668.132
    
    [GRAPHIC] [TIFF OMITTED] 30668.133
    
    [GRAPHIC] [TIFF OMITTED] 30668.134
    
    [GRAPHIC] [TIFF OMITTED] 30668.135
    
    [GRAPHIC] [TIFF OMITTED] 30668.136
    
    [GRAPHIC] [TIFF OMITTED] 30668.137
    
    [GRAPHIC] [TIFF OMITTED] 30668.138
    
    [GRAPHIC] [TIFF OMITTED] 30668.139
    
                                    

</pre></body></html>
